OFFICE OF INSPECTOR GENERAL

  SEMIANNUAL REPORT

   TO THE CONGRESS





April 1, 2007 - September 30, 2007

Mission

The mission of Office of Inspector General (OIG) is to contribute to and support integrity,
efficiency, and effectiveness in all activities of the organizations for which it has oversight
responsibilities.

Values

In accomplishing our mission, OIG is committed to the following:

  • Integrity

  • Excellence

  • Teamwork

Strategic Goals

  • 	Reduce vulnerabilities in high-risk USAID, USADF, and IAF programs

  • 	Increase effectiveness of USAID, USADF, and IAF programs in addressing strategic
     goals and priorities

  • 	 Help to ensure operational integrity in USAID, USADF, and IAF management systems
      programs
CONTENTS

Message from the Inspector General ................................................................................................v


Executive Summary ..............................................................................................................................1


Summary of Results .............................................................................................................................5


           Strategic Goal 1: Reduce vulnerabilities in high-risk U.S. Agency for

           International Development, U.S. African Development Foundation, and

           Inter-American Foundation programs..................................................................................5


           Strategic Goal 2: Increase effectiveness of U.S. Agency for International

           Development, U.S. African Development Foundation, and Inter-American

           Foundation programs in addressing strategic goals and priorities .................................11


           Strategic Goal 3: Help to ensure operational integrity in U.S. Agency for

           International Development, U.S. African Development Foundation, and

           Inter-American Foundation management systems programs .........................................15


Appendices - Reporting Requirements ...........................................................................................19





                                                                                                SEMIANNUAL REPORT TO THE CONGRESS                    iii
MESSAGE FROM THE
INSPECTOR GENERAL
T        his Semiannual Report to the Congress (SARC)
         presents information regarding the United
         States Agency for International Development,
Ofﬁce of Inspector General (USAID/OIG) work and
results achieved during the six-month period ending
                                                              • 	 Increase effectiveness of U.S. Agency
                                                                  for International Development, U.S.
                                                                  African Development Foundation, and
                                                                  Inter-American Foundation programs in
                                                                  addressing strategic goals and priorities
September 30, 2007. It is issued in accordance with the
requirements of the Inspector General Act of 1978,            • 	 Help to ensure operational integrity
as amended, and speciﬁcally addresses our oversight               in U.S. Agency for International
responsibilities for USAID, the United States African             Development, U.S. African Development
Development Foundation (USADF), and the Inter-                    Foundation, and Inter-American
American Foundation (IAF).                                        Foundation management systems
                                                                  programs
The men and women of OIG continued their fine
performance during this reporting period at OIG           Signiﬁcant OIG activity and achievements in support of
headquarters in Washington, DC, and seven regional        these goals is described in this report, and comprehensive
offices located in Baghdad, Iraq; Cairo, Egypt; Dakar,    statistics and data regarding our efforts are also included.
Senegal; Frankfurt, Germany; Manila, Philippines;
                                                          OIG continues to use a collaborative, proactive, and
Pretoria, South Africa; and San Salvador, El Salvador.
                                                          results-oriented approach in support of the integrity,
They issued audits and conducted investigations
                                                          efﬁciency, and effectiveness of USAID, USADF, and IAF
worldwide, and as a result, OIG issued a total of 230
                                                          programs and operations.
audits and closed 41 investigations in support of OIG’s
three strategic goals:

    • 	 Reduce vulnerabilities in high-risk U.S.
        Agency for International Development,
        U.S. African Development Foundation,
        and Inter-American Foundation
        programs




                                                                     Donald A. Gambatesa

                                                                     Inspector General





                                                                          SEMIANNUAL REPORT TO THE CONGRESS              v
EXECUTIVE SUMMARY

T         his SARC presents information about the work of
          USAID/OIG in providing oversight for USAID,
          USADF, and IAF during the six-month period
ending on September 30, 2007. It is issued in accordance
with the requirements of the Inspector General Act of
                                                               • 	 Financial management and fraud 

                                                                   awareness training were conducted 

                                                                   for over 1,200 USAID, grantee, and 

                                                                   contractor personnel.


1978, as amended, and speciﬁcally addresses our responsi­   Strategic Goal 2: Increase effectiveness of U.S.
bilities for USAID, USADF, and IAF.                         Agency for International Development, U.S.
                                                            African Development Foundation, and Inter-
The work reported was planned and executed in support       American Foundation programs in addressing
of OIG’s three strategic goals for USAID, USADF, and        strategic goals and priorities
IAF as described below along with signiﬁcant ﬁndings
and actions related to each goal.                              • 	 USAID/Haiti’s justice program has 

                                                                   not yet produced measurable results, 

Strategic Goal 1: Reduce vulnerabilities                           but efforts toward efficiency and 

in high-risk U.S.Agency for International                          effectiveness should facilitate future 

Development, U.S.African Development                               progress;

Foundation, and Inter-American Foundation
programs                                                       • 	 USAID’s family planning program 

                                                                   achieved mixed results; and

    • 	 Benefits of USAID/Iraq 

                                                               • 	 USAID’s Cuba Program could be 

        telecommunications activities have not 

                                                                   monitored more effectively.

        yet been realized;

    • 	 Coordination between USAID/Iraq and                 Strategic Goal 3: Help to ensure operational
        provisional reconstruction teams (PRT)              integrity in U.S.Agency for International
        could be improved;                                  Development, U.S.African Development
                                                            Foundation, and Inter-American Foundation
    • 	 USAID Afghanistan’s urban water 
                   management systems programs
        and sanitation program may not be 

        sustainable; 
                                         • 	 OIG identified $28.4 million in questioned
                                                                   costs;
    • 	 USAID achieved planned results under 

        the President’s Emergency Plan for 
                   • 	 No instances in which terrorist organization
        AIDS Relief (Emergency Plan) in 
                          received USAID funds were identified;
        Cambodia, India, Malawi, and Russia, 

        but some program areas could be 
                      • 	 A Memorandum of Understanding 

        strengthened; 
                                            (MOU) was signed by OIG and the 

                                                                   Supreme Audit Institute (SAI) in 

    • 	 OIG investigations identified 
                            Pakistan bringing OIG’s total MOUs 

        irregularities in contractor and grantee 
                 with SAIs to 20; 

        operations resulting in remedial action; 

                                                               • 	 Deficiencies were found in pre-

    • 	 OIG investigations led to the felony 
                     deployment activities for USAID’s 

        indictment of a Liberian national for 
                    Global Acquisition System (GLAS); 

        theft of USAID funds and discipline of

        two senior USAID officials; and 
                      • 	 USAID web sites could be easier to use;




                                                                          SEMIANNUAL REPORT TO THE CONGRESS       1
        • 	 Requirements for developing USAID’s                       •   A U.S.-based Private Voluntary
            Foreign Assistance Coordination and                           Organization (PVO) was disqualified
            Tracking System (FACTS) were not                              for a $90 million follow-on cooperative
            followed;                                                     agreement in Pakistan; and
        • 	 Investigations of program and employee                    •   A conflict-of-interest case involving a senior
            integrity matters resulted in recoveries of                   USAID official was settled for $35,000.
            over $91 million from USAID grantees,
            contractors, and employees; 	                         The data related to OIG’s audits and investigations is
                                                                  shown in the following charts:


                          SUMMARY OF AUDITS CONDUCTED AND RESULTS

                                   AS OF SEPTEMBER 30, 2007


                                                                   NUMBER OF                     MONETARY
                        TYPE OF REPORT                               REPORTS            RECOMMENDATIONS ($)*
     FINANCIAL AUDITS


       USAID PROGRAMS AND OPERATIONS                                       0                           0
       FOUNDATIONS’ PROGRAMS AND OPERATIONS                                0                           0
       U.S.-BASED CONTRACTORS                                             46                       5,271,726
       U.S.-BASED GRANTEES                                                15                       5,729,068
            QUALITY CONTROL REVIEWS                                        0                           0
       FOREIGN-BASED ORGANIZATIONS                                        100                      17,417,078
            QUALITY CONTROL REVIEWS                                        8                           0
       ENTERPRISE FUNDS                                                   17                           0
     PERFORMANCE AUDITS

       USAID ECONOMY AND EFFICIENCY                                       41                       30,804,878
       FOUNDATIONS’ ECONOMY AND EFFICIENCY                                 2                           0
     OTHER                                                                 1                           0

                              TOTAL                                       230                      59,222,750

    * Monetary recommendations include questioned costs and funds put to better use.





2   SEMIANNUAL REPORT TO THE CONGRESS
        SUMMARY OF INVESTIGATIVE ACTIVITY AND RESULTS

                   AS OF SEPTEMBER 30, 2007


                                     USAID


                          INVESTIGATIVE ACTIONS


WORKLOAD                                 CIVIL
CASES OPENED                    36       CIVIL REFERRALS                        0
CASES CLOSED                    41       COMPLAINTS                             0
                                         JUDGMENTS/RECOVERIES                   1
                                         SETTLEMENTS                            2
CRIMINAL                                 ADMINISTRATIVE
PROSECUTIVE REFERRALS           2        REPRIMANDS/DEMOTIONS                   6
PROSECUTIVE DECLINATIONS        1        PERSONNEL SUSPENSIONS                  1
INDICTMENTS                     1        RESIGNATIONS/TERMINATIONS              1
CONVICTIONS                     0        OTHER ADMINISTRATIVE ACTIONS           0
FINES                           0        RECOVERIES                             5
RESTITUTIONS                    1        SUSPENSIONS/DEBARMENTS                 0
                                         SAVINGS                                0
                                         SYSTEMIC CHANGES                       9




                        INVESTIGATIVE RECOVERIES


    JUDICIAL RECOVERIES                                        $90,728,540.97
    ADMINISTRATIVE RECOVERIES                                     $700,944.30
    SAVINGS                                                               $0

    TOTAL INVESTIGATIVE SAVINGS/RECOVERIES                    $91,429,485.27




                                                      SEMIANNUAL REPORT TO THE CONGRESS   3
SUMMARY OF RESULTS

     Strategic Goal 1:
     Reduce vulnerabilities in high-risk U.S.Agency for International Development,
     U.S.African Development Foundation, and Inter-American Foundation programs



O         IG provides audit and investigative oversight
          of activities that are of significant interest
          to USAID, USADF, IAF, and Congress.
Considerable resources were applied and work was
performed by OIG in support of this goal that focused
                                                             OIG audited USAID/Iraq’s Telecommunications
                                                             Activities to assess USAID/Iraq’s intended results
                                                             against project objectives. USAID/Iraq and its
                                                             contractor planned to provide fiber optic material and
                                                             construction equipment; employ 1,000 Iraqis; and
on high-priority program areas, program and employee         improve the data and voice transmission network to an
integrity matters, and preventive outreach.                  estimated 10 million Iraqis.
USAID programs in Iraq and Afghanistan and the               OIG found that USAID met its obligations under
Emergency Plan are high-priority programs. OIG               the objectives by providing equipment, employing
maintains an office in Iraq staffed with seven auditors      some Iraqis, and expanding some of Iraq’s
and two investigators who conduct audits and                 telecommunications facilities; however, the $46 million
investigations of the USAID/Iraq program. OIG                project had yet to benefit the millions of Iraqis as
conducts audits and investigations in Afghanistan            intended, because other collaborating organizations had
from its Manila, Philippines, office while work on           not fulfilled their project obligations.
the Emergency Plan is conducted by OIG staff in
Washington and regional offices.                             OIG recommended that USAID/Iraq work with the
                                                             project lead office and the Government of Iraq to
During this period, OIG audits in Iraq focused on            install necessary equipment and make it operational. For
programs such as construction of a nationwide fiber          future projects, OIG recommended that the Mission
telecommunications network and coordination with             obtain a written agreement from key partners regarding
PRTs. In Afghanistan, OIG audits included assessing          responsibilities that are essential to the project’s
progress of the urban water and sanitation program. In       achievement.
addition, OIG conducted audits of the Emergency Plan
and investigations of program and employee integrity         Management decisions have been reached on both
matters, and conducted financial management and fraud-       recommendations.
awareness training.                                          (Audit Report No. E-267-07-004-P)

Benefits of USAID/Iraq’s Telecommunications                  Coordination Between USAID/Iraq and
Activities Not Yet Realized                                  Provisional Reconstruction Teams in Iraq Could
                                                             Be Improved
In January 2005, USAID worked with stakeholder
organizations to implement a project to design, install,     The primary means of interaction between the U.S.
and test a nationwide fiber telecommunications network       Government and Iraqi provincial governments are PRTs,
connecting power and telecommunications facilities           which are a joint civil and military effort. The PRTs
across Iraq. The intended result of the project was          help Iraqi provincial governments develop the capacity
a functioning consolidated fiber network that would          to meet the basic needs of the population. USAID; the
provide control capabilities and communication for the       Departments of State, Justice, and Agriculture; the U.S.
electricity grid and expand the voice and data capacity of   Army Corps of Engineers; the Multi-National Force–
the telecommunications network.                              Iraq; and coalition partners all participate in PRTs.




                                                                            SEMIANNUAL REPORT TO THE CONGRESS           5
    OIG audited USAID/Iraq’s Participation in PRTs in                                 In September 2004, USAID/Afghanistan awarded a
    Iraq to determine whether USAID/Iraq coordinated the                              contract for the Afghanistan Urban Water and Sanitation
    area expertise of USAID field officers and PRTs with                              Project. At the project completion date of December
    that of its cognizant technical officers1 in Baghdad, and                         31, 2006, the contract had an estimated cost of $37.3
    whether USAID/Iraq programs benefit from USAID                                    million. Anticipated results included extending water
    participation in the PRTs.                                                        distribution systems and increasing potable water to
                                                                                      two cities, and providing water and sanitation technical
    OIG found that coordination took place between                                    advisory services to USAID/Afghanistan.
    the USAID field officers/PRT representatives and
    the USAID/Iraq cognizant technical officers but                                   OIG audited USAID/Afghanistan’s Urban Water and
    that coordination could be improved. USAID PRT                                    Sanitation Program to determine whether selected
    representatives were not always consulted regarding the                           activities were on schedule to achieve planned results.
    design and implementation of activities, and sometimes
    they were not aware of USAID activities in their areas.
    Furthermore, two out of six cognizant technical officers
    noted that they received little information from the
    USAID PRT representatives.
    OIG also found that USAID/Iraq programs were
    benefiting from participation in the PRTs through the
    provision of logistical support and access to military
    transport. In addition, the PRTs were benefiting from
    USAID’s participation.
    OIG recommended that USAID/Iraq use its PRT
    representatives for program site visits and that USAID/
    Iraq review the implementation of its new procedures
    and evaluate the coordination between cognizant
    technical officers and PRT representatives.
    Management decisions have been reached on both                                       Photograph of a USAID-funded steel reservoir used to hold
    recommendations.                                                                     water from production wells before being sent through the
                                                                                         water distribution system in Gardez,Afghanistan.
    (Audit Report No. E-267-07-008-P)
                                                                                      OIG found that the project generally achieved planned
    USAID/Afghanistan’s Urban Water and
                                                                                      results. The sustainability of the project is questionable,
    Sanitation Program May Not Be Sustainable
                                                                                      however, because USAID/Afghanistan did not take
    Most of Afghanistan’s infrastructure, including that                              appropriate measures to ensure financial and operational
    used to provide water and sanitation services, fell into                          sustainability of the water systems.
    disrepair or was destroyed during periods of war and
                                                                                      OIG made five recommendations, two of which
    unrest beginning in the 1970s. According to World Bank
                                                                                      included strengthening its system for controlling,
    estimates, less than 20 percent of the people in Kabul
                                                                                      projecting, and monitoring contract costs; and ensuring
    have piped water, and less than half the provincial capital
                                                                                      that contractors comply with reporting requirements.
    cities have piped water systems. Sanitation facilities are
    crude or lacking and infant mortality rates from diarrheal                        Management decisions were reached on three
    diseases account for 27 percent of all infant deaths in                           recommendations and final action was taken on two
    the first year.                                                                   recommendations.
                                                                                      (Audit Report No. 5-306-07-006-P)


    1.	 The cognizant technical ofﬁcer is responsible for ensuring, through liaison with the contractor or grant recipient, that the terms and conditions of the
        acquisition or assistance instrument are accomplished.



6    SEMIANNUAL REPORT TO THE CONGRESS
President’s Emergency Plan for AIDS Relief                      OIG made 15 recommendations, including developing
Achieved Planned Results at Four Missions                       procedures to define roles and responsibilities of
                                                                managers in reporting program results, revising
Congress enacted legislation to fight HIV/AIDS                  performance targets to adjust for program changes,
internationally through the President’s Emergency Plan          reviewing partners’ methods for collecting data, and
for AIDS Relief (Emergency Plan). The $15 billion,              conducting field-level data quality assessments and site
5-year program provided $9 billion in new funding in 15         visits.
focus countries. The Emergency Plan also devoted $5
billion over 5 years to programs in more than 100 other         Management decisions have been made on eight
countries and increased the U.S. pledge to the Global           recommendations, and final action has been taken on six.
Fund by $1 billion over 5 years.                                One recommendation awaits a management decision.
During this period, OIG conducted audits in Cambodia,
India, Malawi, and Russia to determine whether USAID’s          (Audit Report Nos. 4-612-07-011-P [Malawi], 5-442-07-010­
Emergency Plan prevention, care, and treatment activities       P [Cambodia], 8-118-07-004-P [Russia], and 9-910-07-006-P
achieved planned results in its grants, cooperative             [India])
agreements, and contracts.
OIG found that although USAID achieved results, some
program areas could be strengthened.




     Photograph of a community volunteer training orphans and     Photograph of a client receiving HIV test results and
     vulnerable children to sew in Bangwe, Malawi.The program     counseling at an Emergency Plan funded clinic in Phnom
     funded by USAID also generates income for the students.      Penh, Cambodia.




                                                                                 SEMIANNUAL REPORT TO THE CONGRESS          7
    PROGRAM INTEGRITY                                           purposes, which included the viewing and storage of
                                                                sexually explicit material on two U.S. Government
    Investigations Result in Remedial Actions                   owned computers that were in the employee’s custody.
    As a result of an OIG investigation, a USAID Mission        A senior Agency official received a letter of
    issued a $105,645 Bill of Collection to a USAID             admonishment based on an Agency review of an OIG
    grantee for operational irregularities by its subgrantee.   investigation that substantiated ethical lapses on the part
    The subgrant was created to promote community               of the official. The investigation further revealed that the
    reconciliation and address immediate development needs      official pressured subordinates to arrange business class
    in five targeted areas. USAID issued a Bill of Collection   travel for the official’s official trips, which at the time
    due to the subgrantee’s action, both in improperly          contradicted USAID policy. Further, inaccurate travel
    disbursing funds earmarked for USAID projects and           and time reports were filed on behalf of the official
    making several unauthorized transfers of funds between      pursuant to temporary duty trips to the United States.
    local bank accounts.
    Another OIG investigation conducted with a USAID            PREVENTIVE OUTREACH
    Mission uncovered that the parameters of a personal         USAID’s contracts and grants define the types of costs
    services contract valued at approximately $280,000 were     that can be charged in support of various programs.
    being exceeded. As a result, the subsequent contract        To increase awareness and compliance with cost
    specified a limited work week, thereby ensuring that        principles, OIG conducts financial management training
    the total number of days of work did not exceed those       for overseas USAID staff, contractors, grantees, and
    authorized by the contract. Also, the cognizant technical   others. The training provides a general overview of U.S.
    officer responsibilities were transferred to a senior       Government cost principles and audit requirements.
    USAID official at the Mission.                              It also provides examples of concepts such as
                                                                reasonableness of costs and allowable and unallowable
    Former Project Accountant Indicted for Theft                costs. During this period, OIG provided financial
    of USAID Funds                                              management training in five countries to about 400
    A Liberian national working as an accountant for a          individuals.
    USAID-funded organization assisting with Liberian           OIG also employs proactive strategies to prevent
    national elections was indicted by a Federal Grand Jury     fraud. For example, fraud-awareness training given to
    in the District of Columbia on seven felony criminal        employees, contractors, grantees, and others alerts them
    counts. The indictment was returned on September 19,        to fraudulent practices and schemes and advises them
    2007, and included counts of wire fraud, mail fraud,        on how to report fraud. When requested, the training is
    and theft from a program receiving Federal funds. The       tailored to specific groups, such as contracting officers
    indictment was the result of an OIG investigation           or cognizant technical officers.
    initiated after the affected organization reported the
    theft to the OIG. Once arrested, the indicted individual    Investigations resulting in criminal or civil prosecution are
    will be extradited to the United States to face trial.      publicized on USAID’s web site and in other publications,
                                                                calling attention to prosecutorial action taken against
    EMPLOYEE INTEGRITY                                          individuals or organizations whose illegal activities
                                                                have targeted USAID programs. Posters, ﬂyers, and
    OIG Investigations Result in Discipline for Two             cards promoting the OIG hotline have been distributed
    Senior USAID Officials                                      worldwide and are produced in English, Spanish, French,
                                                                and Arabic.
    A senior Agency official received a 60-day suspension,
    without pay, and agreed to reimburse the Government         OIG is an active participant on two Department of
    up to $7,500. The OIG investigation determined that         Justice task forces: the National Procurement Fraud Task
    the official circumvented USAID internal controls by        Force and the International Contract and Corruption
    acting as the requester and approver on a purchase          Fraud Task Force (ICCTF). The mission of the task
    order to buy a $7,500 satellite internet network. The       forces is to promote the early detection, prevention, and
    network was used exclusively by the official for personal   prosecution of procurement and grant fraud associated


8   SEMIANNUAL REPORT TO THE CONGRESS
with increased contracting activity for national security        Regional Inspector General ofﬁces. As a result of OIG
and other government programs. OIG’s participation in            participation and OIG’s work, the utilization of special
the ICCTF has required an accretion of Iraq and Afghani-         agents in the execution of search warrants and other law
stan coverage, which is accommodated by the addition             enforcement activities worldwide has increased.
of one special agent to both the Baghdad and Manila


                    FRAUD AWARENESS BRIEFINGS CONDUCTED WORLDWIDE

                                AS OF SEPTEMBER 30, 2007


  Month                Location               Sessions       Attendees                   Professional Affiliation
    APR         Manila, Philippines                1               14           USAID Personnel
                Manila, Philippines                1               27           USAID and Contractor Personnel
                Washington, DC                     1               14           USAID Personnel
                Cairo, Egypt                       1               26           USAID and Contractor Personnel
                Davao, Philippines                 3              137           USAID and Contractor Personnel
                Tbilisi, Georgia                   2               90           USAID Personnel
                Islamabad, Pakistan                2               35           USAID Personnel
    MAY         Asunción, Paraguay                 1               19           USAID Personnel

    JUN         Barat Kav, Indonesia               2              107           USAID and Contractor Personnel
                Baghdad, Iraq                      2               40           USAID Personnel
    JUL         La Ceiba, Honduras                 1               3            USAID Contractors
                Manila, Philippines                2              107           USAID Personnel
                Manila, Philippines                2               72           USAID NGO Personnel
                Manila, Philippines                1               34           USAID MCA––Management Systems Int’l
                Washington, DC                     1               35           MCC Ethics Training
                Washington, DC                     1               22           USAID Personnel
    AUG         Manila, Philippines                1               90           USAID Personnel
                Tbilisi, Georgia                   1               20           MCC––Georgia Personnel

    SEP                                                      NOTHING TO REPORT

                         TOTAL                    26              892

Note: MCC = Millennium Challenge Corporation; NGO = nongovernmental organization.




                                                                                    SEMIANNUAL REPORT TO THE CONGRESS       9
       Strategic Goal 2:
       Increase effectiveness of U.S.Agency for International Development, U.S.African
       Development Foundation, and Inter-American Foundation programs in addressing
       strategic goals and priorities




T        o support this strategic goal, OIG audits
         programs designed to improve lives and achieve
         positive change in societies. These include health
programs focused on the most serious health issues
affecting humankind, including HIV/AIDS, malaria,
                                                                                The justice program has not yet produced measurable
                                                                                improvements in the efficiency or effectiveness of
                                                                                Haiti’s court system, but the OIG’s judgment is
                                                                                that the program will facilitate future progress. For
                                                                                example, USAID’s contractor prepared a study on
avian inﬂuenza, food security, and family planning and                          pretrial detention that corrected some widespread
also democracy and economic growth programs intended                            misconceptions2 about the nature of the problem and
to establish the structure for a stable and free society in                     conducted a case flow study to identify bottlenecks
which individuals can work and see the positive results of                      in the justice system. The contractor helped develop
their labor.                                                                    procedural rules for prosecutors and justices of the
                                                                                peace and trained more than 450 court employees in
During this period, OIG audited Haiti’s justice program,                        application of the rules.
USAID’s compliance with Tiahrt requirements for family
planning, and USAID’s Cuba program.                                             However, OIG found a higher absolute number of
                                                                                pretrial detainees compared with earlier levels. Better
Justice Program Has Not Produced Measurable                                     coordination is needed among the justice sector
Improvements in Haiti’s Court System but                                        participants, vetting of judges is needed, the Mission’s
Should Facilitate Future Progress                                               Performance Management Plan needs better baseline
                                                                                data and targets, and the contractor’s planned outputs
Haiti is a fragile state, and USAID/Haiti is working with
                                                                                were not adequately defined.
a contractor to achieve the following:
                                                                                OIG concluded that the Mission and its partner did not
     • 	 Strengthen the administrative,
                                                                                report accurate and complete information on program
         management, and technical capacity
                                                                                achievements to stakeholders.
         of the courts and prosecutors through
         training and technical assistance to                                   OIG made eight recommendations including funding
         justices of the peace, judges, prosecutors,                            activities to reduce the percentage of prisoners in pretrial
         and court personnel.                                                   detention; establishing a system for vetting judges;
                                                                                revising the Performance Management Plan; better
     • 	 Reduce pretrial detention by improving 

                                                                                defining contractor outputs; and improving controls over
         the flow of cases through the police, 

                                                                                program reporting.
         prisons, and court system.

                                                                                Management decisions have been reached on all eight
     • 	 Improve citizen links to the judiciary
                                                                                recommendations.
         through greater citizen awareness of their
         rights and access to legal services.                                   (Audit Report No. 1-521-07-008-P)
OIG conducted an audit of USAID/Haiti’s Justice
Program to determine whether the program achieved
planned results and whether USAID/Haiti reported
complete and accurate information to stakeholders.



2.	 The study showed that while it had been thought that many pretrial detainees were awaiting trial on minor charges, the majority of pretrial detainees
    were charged with serious or violent crimes.The study also provided quantified information on the low conviction and incarnation rates in Haiti.



                                                                                                     SEMIANNUAL REPORT TO THE CONGRESS                      11
            Photograph of Justice of the Peace Court House Montrouis, St-Marc,                        Photograph of a clerk entering informa­
            Haiti.This one-room courthouse had no running water or electricity.                       tion into the court case register by hand
                                                                                                      at the Justice of the Peace Court, Section
                                                                                                      Sud Port-au-Prince, Haiti.



     Mixed Results in USAID’s Family Planning                                           • 	 Incentives should not be paid to
     Program                                                                                individuals in exchange for becoming
                                                                                            family planning acceptors or to program
     Previous OIG work found noncompliance with                                             personnel for achieving targets or quotas.
     the Tiahrt Amendment3 in Guatemala,4 and OIG
     consequently conducted work in other countries to                                  • 	 Rights or benefits cannot be withheld
     identify any compliance concerns with the Tiahrt                                       from people who decide not to become
     requirements.                                                                          family planning acceptors.
     During this period, OIG audited USAID’s Effectiveness                              • 	 Family planning acceptors must receive
     in Complying with Tiahrt Voluntary Family Planning                                     information on health benefits and risks
     Requirements in Ethiopia and Mali. The audits were                                     of the family planning method chosen.
     conducted to determine whether USAID/Ethiopia
     and USAID/Mali effectively implemented controls                                    • 	 Provision of experimental family
     and procedures to ensure that they and their partners                                  planning methods occurs in the context
     complied with the Tiahrt Amendment requirements. The                                   of a scientific study in which participants
     Tiahrt Amendment requires the following:                                               are advised of potential risks and
                                                                                            benefits.
         • 	 Service providers and referral agents
             cannot implement or be subject to quotas                             Additionally, no later than 60 days after the USAID
             relating to numbers of births, family                                administrator determines that a violation of the Tiahrt
             planning acceptors, or acceptors of a                                requirement has occurred, a report must be submitted
             particular family planning method.                                   to Congress describing the violation and the corrective
                                                                                  actions taken.


     3.	 Public Law 105-277, dated October 21, 1998, incorporated the Tiahrt Amendment and prohibits targets or quotas for service providers and referral
         agents and prohibits the payment of incentives to program personnel based on the number of family planning acceptors or the number of acceptors of
         a particular method.
     4.	 “Audit of Compliance with the Tiahrt Amendment Under USAID/Guatemala’s Cooperative Agreements,” August 21, 2006 (Audit Report
         No. 1-520-06-007-P).



12   SEMIANNUAL REPORT TO THE CONGRESS
OIG found that USAID/Ethiopia effectively                                        OIG determined that USAID did not always ensure
implemented controls to ensure that it and its partners                          that audits required for Cuba Program grantees were
complied with the Tiahrt Amendment requirements.                                 conducted. In addition, responsibilities and authorities
                                                                                 for implementing and monitoring USAID’s Cuba
OIG found no evidence that USAID/Mali or its                                     Program were not clearly defined, assigned, and
partners violated the Tiahrt Amendment, but it had not                           performed.
implemented controls to investigate, remedy, and report
Tiahrt Amendment violations.                                                     OIG made 12 recommendations to strengthen cognizant
                                                                                 technical officer responsibilities and USAID’s process
OIG made six recommendations, including that                                     of identifying the audit universe of U.S.-based nonprofit
USAID/Mali reevaluate the effectiveness of its training                          organizations.
and presentation methods for partners; require partners
to communicate Tiahrt Amendment requirements to                                  Management decisions were reached on eight
everyone involved with the program; and make more                                recommendations, and final action was taken on two.
efficient use of site visits.                                                    Management decisions are pending on two other
                                                                                 recommendations.
Final action has been taken on all six recommendations.
                                                                                 (Audit Report No. 9-516-07-009-P)
(Audit Report Nos. 4-663-07-007-P [Ethiopia] and 7-688-07­
003-P [Mali])

USAID’s Cuba Program Could Be Monitored
More Effectively
USAID awards grants and cooperative agreements
to U.S. universities and other U.S. nongovernmental
organizations to promote peaceful, nonviolent
democratic change in Cuba. These awards are designed
to help build civil society by increasing the flow of
information on democracy, human rights, and free
enterprise to, from, and within Cuba. Initiatives include
advocacy, within Cuba and internationally, for instituting
a rule of law, protecting human rights––including
freedom of the press and information––and encouraging
civic participation. According to USAID, it awarded
approximately 40 grants and cooperative agreements,
totaling nearly $64 million, from the start of the
program in 1996.
OIG audited USAID’s Cuba Program to determine
whether USAID ensured that audits required for
Cuba Program grantees5 were conducted and whether
responsibilities and authorities for implementing and
monitoring USAID’s Cuba Program were clearly defined,
assigned, and performed.




5.	 USAID’s Cuba Program is subject to the Single Audit Act of 1984, as amended, which is intended to promote sound financial management for Federal
    awards administered by nonprofit organizations.This Act requires a single organization-wide audit upon which all Federal agencies rely, rather than
    grant-by-grant audits by each agency providing Federal funding.The “single audit” covers the organization’s financial statements, compliance with laws
    and regulations, and internal control systems.



                                                                                                      SEMIANNUAL REPORT TO THE CONGRESS                      13
     Strategic Goal 3:

     Help to ensure operational integrity in U.S.Agency for International Development,

     U.S.African Development Foundation, and Inter-American Foundation 

     management systems programs



O          perational integrity of internal management
           systems is critical to the effectiveness of
           program delivery at USAID, USADF, and
IAF. Financial and procurement systems, productive
working relationships with other governments’ audit
                                                            USAID contracted with independent public accounting
                                                            firms to conduct concurrent audits of cash transfers
                                                            to the Palestinian Authority, as well as financial audits
                                                            and agreed-on procedures of contractors, grantees,
                                                            subcontractors, and subgrantees. These audits help
entities, and information technology systems provide        ensure the validity of costs claimed and compliance
the essential tools by which the accountability and         with Executive Order 13224 regarding blocking
performance of programs is monitored and measured.          assistance to terrorist organizations. During this period,
OIG continues to conduct audits of USAID, USADF,            OIG issued 5 final reports, identified 8 reportable
and IAF financial systems; oversee activities in the West   conditions in internal controls, identified 13 material
Bank and Gaza; work with SAIs overseas; and promote         instances of noncompliance, questioned costs of
improvements in information technology. Also during         approximately $520,000, and audited $8.6 million.
this reporting period, significant OIG investigative
resources were applied to program and employee              OIG oversight activities during this period did not
integrity concerns.                                         identify any instances in which terrorist organizations
                                                            received USAID funds.
OIG Identified $28.4 Million in Questioned
Costs                                                       OIG Worked with SAIs

OIG oversees audits conducted by Federal and                OIG continues to work with SAIs. SAIs are the
nonfederal auditors and transmits Defense Contract          recipient countries’ principal government audit
Audit Agency reports conducted for OIG to USAID             agencies and often are the only organizations that have
management for appropriate action. In addition, OIG         a legal mandate to audit the accounts and operations
oversees nonfederal auditors who perform audits of          of their governments. OIG establishes standards
U.S.-based nonprofit and foreign organizations that         and procedures for SAI audits of USAID funds and
receive USAID funds and conducts quality-control            oversees the SAI’s work. During this period, OIG
reviews to determine whether the audits comply with         signed a MOU with the SAI in Pakistan. OIG now has
U.S. Government requirements. During this period,           MOUs with SAIs in 20 countries.
OIG reviewed 178 audit reports that identified $28.4
                                                            Weaknesses Occurred in USAID’s GLAS
million in questioned costs, covering about $3.7 billion
                                                            Predeployment Activities
audited.
                                                            To improve USAID’s acquisition process worldwide,
For example, at USAID/Iraq, OIG transmitted a
                                                            USAID plans to implement GLAS, a web-based,
Defense Contract Audit Agency audit report that
                                                            commercial off-the-shelf software package.
identified $2.9 million in questioned ineligible costs
covering about $49.3 million audited. OIG is awaiting a     OIG audited USAID’s predeployment activities
final determination by USAID.                               for GLAS to determine whether USAID followed
                                                            best practices before deploying the system. These
OIG’s Oversight Activities Continue in the                  practices include preparing functional and technical
West Bank and Gaza                                          requirements, designing system interfaces, managing
OIG’s oversight activities in the West Bank and Gaza        project risks, testing, and migrating data.
included audits of USAID’s cash-transfer program
to the Palestinian Authority and continuing audits of
USAID’s contractors and grantees.

                                                                           SEMIANNUAL REPORT TO THE CONGRESS             15
     Although USAID properly designed the approved                                    OIG recommended that USAID work with responsible
     interfaces with its other systems and designed a                                 parties to identify which web sites should be shut down,
     good system to manage project risks, OIG found                                   provide oversight of USAID-funded web sites to ensure
     deficiencies in GLAS predeployment activities. These                             that those web sites have a disclaimer regarding USAID’s
     deficiencies included weaknesses in evaluating technical                         responsibility for web site contents, and inform users
     infrastructure,6 evaluating performance requirements,                            when they are leaving a government site.
     and planning data migration.
                                                                                      Management decisions have been reached on all
     OIG made six recommendations, including that the                                 recommendations.
     GLAS Team evaluate the system against USAID’s
     technical infrastructure, develop performance                                    (Audit Report No. A-000-07-003-P)
     requirements and test GLAS against those requirements,
                                                                                      Requirements for Developing a Major
     and develop comprehensive mission data migration
                                                                                      Information Technology System Were Not
     plans.
                                                                                      Followed
     Final action was taken on one recommendation and
                                                                                      FACTS will provide a single repository for data and
     management decisions were reached on the remaining
                                                                                      a common planning and reporting tool for foreign
     five recommendations.
                                                                                      assistance resources across U.S. Government agencies
     (Audit Report No. A-000-07-004-P)                                                implementing programs with foreign assistance funds.
                                                                                      FACTS is owned and sponsored by the Office of the
     USAID Web Sites Could Be Easier to Use                                           Director of Foreign Assistance within the Department of
                                                                                      State, which directed the development and implementation
     The general public increasingly uses the Internet                                of FACTS. However, the funding and contract mechanism
     to acquire information from government agencies.                                 for its development and implementation were supported
     Therefore, USAID web sites must be trustworthy,                                  through USAID.
     accessible, citizen-oriented, accurate, and reliable. These
     sites must be sufficient to provide information to groups                        The Clinger-Cohen Act7 requires executive agencies to
     of users, including citizens, businesses, and other Federal                      use a disciplined capital planning and investment control
     agencies.                                                                        (CPIC) process to acquire, use, maintain, and dispose
                                                                                      of information technology (IT). The Act requires the
     OIG conducted an audit of Compliance of Selected                                 Office of Management and Budget (OMB) to establish
     USAID Web Sites with Specific Requirements of Section                            processes to analyze, track, and evaluate the risks and
     207(f) of the E-Government Act of 2002 to determine                              results of major capital investments in IT systems made
     whether USAID web sites meet its requirements. The                               by executive agencies.
     requirements included (1) ensuring information quality;
     (2) providing the ability to search its public web sites;                        OIG audited USAID’s CPIC process for FACTS to
     (3) communicating with the public, state, and local                              determine whether CPIC process requirements for
     governments; and (4) maintaining accessibility.                                  vetting and approving FACTS in accordance with the
                                                                                      Clinger-Cohen Act were followed.
     OIG found that USAID web sites met most of
     the specific requirements of Section 207(f) of the                               OIG found that neither USAID’s nor State’s CPIC
     E-Government Act of 2002; however, USAID did not                                 processes were used for FACTS. For example, a business
     implement several requirements to ensure that its public                         case was not prepared and submitted to OMB for review,
     web sites were citizen oriented and visitor friendly.                            an alternatives analysis was not formally conducted,
                                                                                      the development and implementation of FACTS was



     6.	 The equipment, software, services, and products used in storing, processing, transmitting, and displaying information.
     7.	 Public Law 104-106, dated February 10, 1996, also known as the Information Technology Management Reform Act was intended, among its many other
         purposes, to “reform acquisition laws and information technology management of the Federal Government.” The law itself has nothing to do with tech­
         nology accessibility or people with disabilities. However, its relevance is that in Section 5002 of the Act (the “Definitions” section), the Clinger-Cohen
         Act establishes a definition of information technology that has since been cited in numerous other Federal laws, including Section 508.



16    SEMIANNUAL REPORT TO THE CONGRESS
not monitored using OMB’s prescribed methods to             funds by an employee. The implementer provided this
monitor cost and schedule performance, and a review         information to Serbian police authorities for prosecution
of FACTS’s architecture was not undertaken to ensure        in the local court system. Currently, the local case is
compliance with Federal enterprise architecture             being completed with charges pending in the coming
requirements.                                               months. In August 2007, the employee completed
                                                            restitution of the embezzled funds, bringing the total
Because FACTS was not subjected to a CPIC process, it       recovered to $40,453.31.
is unknown whether FACTS, as implemented, was the
best alternative for its intended purpose, was meeting      False Claims Act Investigation Leads to
project cost and schedule performance goals, and will       Multimillion-Dollar Judgment
obtain sustainable funding for continued development,
support, and operation.                                     In the late 1980s, as part of the U.S. pledge to assist
                                                            Egypt following the Camp David Peace Accords,
OIG made three recommendations, including that              USAID awarded construction contracts to several
USAID clarify whether USAID or the Department of            multinational construction companies. These contracts
State has CPIC oversight responsibilities and authorities   were to be awarded following a competitive bidding
to manage FACTS, submit a business case to OMB, and         process; however, several of the involved bidders
commit no funds to develop new features or functions        conspired to subvert the competitive process through
for FACTS until the project is vetted through the CPIC      the payment of kickbacks to other possible bidders to
process.                                                    either not bid or to inflate the bids on their respective
Management decisions were reached on all three              proposals.
recommendations.                                            On May 14, 2007, a Federal court returned a verdict
(Audit Report No. A-000-07-006-P)                           finding five companies and one individual liable under
                                                            the False Claims Act for conspiring to rig bids for
PROGRAM INTEGRITY                                           construction contracts funded by USAID in Egypt. The
                                                            jury awarded the United States $34 million in damages,
Investigation Results in Issuance of Bill of                which was trebled under the False Claims Act for an
Collection in the Amount of $302,771.28                     award of $103 million.
Based on an OIG investigation, a USAID grantee              On August 10, 2007, a judgment was ordered and
was issued a Bill of Collection for $302,771.28 for         adjudged, for the defendants, in the amount of
reimbursement of funds resulting from the fraudulent        $90,438,087.66 (credit was given to defendants for
activities of a subgrantee. OIG previously reported a       payments of approximately $13 million already received).
cancellation of the subgrant that resulted in savings
of $224,914 and funds recovery totaling $21,589 for         U.S.-Based Multinational Private Voluntary
another subgrant after the investigation uncovered that     Organization Disqualified from a $90 Million
a director of a USAID-funded nonprofit organization         Follow-on Cooperative Agreement
was improperly disbursing funds to family members.
Additionally, the director double-billed for salaries,      A U.S.-based multinational PVO, with an $83 million
supplies, and construction materials, and used funds to     education-sector cooperative agreement in Pakistan, was
purchase equipment for a project financed by another        disqualified from a $90 million follow-on agreement
international donor organization. The funding was           after an OIG investigation confirmed the existence
provided to the organization to establish alternative       of collusion between the Deputy Chief of Party and
learning centers for classes of more than 7,000 children.   a host country government official. The investigation
                                                            determined that the Deputy Chief of Party for the PVO
Collaboration Leads to Recoveries and                       and a host government official exchanged information
Presentation for Local Prosecution                          relative to USAID’s Request for Applications (RFA)
                                                            before its issuance. The two attempted to amend the
At the request of the OIG and the USAID Mission             RFA to the advantage of the incumbent PVO.
in Serbia-Montenegro, an implementer provided
information concerning the embezzlement of USAID



                                                                            SEMIANNUAL REPORT TO THE CONGRESS           17
     Manufacturer Settles False Statements
     Allegation and Pays $215,000
     An Enfield, Connecticut, manufacturer admitted to
     applying for and receiving USAID Commodity Import
     Program (CIP) funding for a $732,284 Egyptian spare-
     part transaction that was ineligible for USAID financing
     under CIP regulations. The firm submitted materially
     false statements pertaining to the source and origin of
     spare parts for a glass-manufacturing line imported into
     Egypt, which was financed by USAID CIP. The firm
     declared to USAID on AID Form 11 that the spare
     parts were substantially manufactured in the United
     States. However, the investigation established that the
     majority of the spare parts were not made in the United
     States as required by regulation. During the course of
     the investigation, this manufacturer reimbursed USAID
     the full cost of the transaction, $732,284, when initially
     confronted with the alleged false statements. In addition
     to providing repayment for the entire transaction,
     the Connecticut firm paid the Department of Justice
     $215,000 to settle all claims.

     EMPLOYEE INTEGRITY
     OIG Investigation Leads to $35,000 Civil
     Settlement
     A senior USAID official formerly leading a critical
     country program settled a civil conflict-of-interest
     case with the Department of Justice by paying the
     Department $35,000. The case was the result of an
     OIG investigation dealing with the employee’s spouse,
     a USAID-funded contractor employee. The conflict
     of interest was reported to USAID, and thereafter the
     USAID employee was removed from his position and
     reassigned to Washington.




18    SEMIANNUAL REPORT TO THE CONGRESS
               A

               P

               P

  REPORTING    E
REQUIREMENTS   N
               D
               I
               C
               E
               S

                    19
                    USAID FINANCIAL AUDIT REPORTS ISSUED

                      April 1, 2007 through September 30, 2007

                                                                                                        Amount of
     Report         Date of                                                                              Findings        Type of
     Number         Report                                 Report Title                                  ($000s)         Findings
                                       --FOREIGN-BASED ORGANIZATIONS-­
   1-518-07-046-R   04/18/07   Financial Statement Audit of the “Alliance for the Development of           354              QC
                               Cocoa in the Amazon Region Project,” Cooperative Agreement No.
                                                                                                           354              UN
                               518-A-00-03-00154-00, Managed by the YACHANA GOURMET S.A.,
                               for the Period From October 1, 2003 to September 30, 2005
   1-521-07-047-R   05/14/07   Financial Statement Audit of USAID Resources Under Cooperative
                               Agreement No. 521-A-00-05-00077-00, Managed by Fondasyon Kole
                               Zepol, for the Period From July 15, 2005 to June 30, 2006
   1-521-07-048-R   04/30/07   Fund Accountability Statement of USAID Resources Managed by
                               La Fondation Heritage Pour Haiti Under Cooperative Agreement
                               No. 521-A-00-02-00023-00 for the Period from October 1, 2005 to
                               September 30, 2006
   1-521-07-049-R   05/14/07   Financial Statement Audit for USAID/Haiti’s Resources Under
                               Cooperative Agreement No. 521-A-00-05-00010-00, for the Year
                               Ended September 30, 2006, Managed by Fondation Haitienne de
                               L’Environnement
   1-532-07-050-R   05/30/07   Close-out Financial Statement Audit of the Cooperative Agreement            18               QC
                               No. 532-A-00-04-00024-00, Managed by the Jamaica Chamber of
                               Commerce, for the Period From April 1, 2004 to September 30, 2005
   1-526-07-051-R   06/07/07   Audit of the Financial Statements of the Project - Cooperative
                               Agreement No. 526-A-00-02-00073-00 Program of Mediation,
                               Funded by the United States Agency for International Development
                               (USAID/Paraguay) and Managed by Instituto de Estudios Comparados
                               en Ciencias Penales y Sociales, for the Period From January 1, 2005 to
                               December 31, 2005
   1-598-07-052-R   06/20/07   Financial Statement Audit of the Projects LAG-A-00-02-00001-00
                               “Promoting Human Rights Through Inclusion, Conflict Prevention
                               and Democratization in Latin America” and EDG-A-00-02-00030-00
                               “Psychological Support for Victims of Torture,” Managed by the Inter-
                               American Institute of Human Rights, for the Year Ended December 31,
                               2005
   1-532-07-053-R   07/18/07   Close-out Audit of the Fund Accountability Statement of the Jamaica         21               QC
                               Business Recovery Program No. PCE-I-00-00-00002, Managed by the
                                                                                                            6                BU
                               Jamaica Exporters’ Association, for the Period From April 7, 2005 to
                               January 31, 2007                                                            21               UN
   1-522-07-054-R   07/25/07   Audit of the Fund Accountability Statement of the USAID/Trade               16               QC
                               Investment and Competitiveness Program, Cooperative Agreement
                                                                                                           16               UN
                               No. 522-A-00-05-00303-00, Managed by Foundation for Investment
                               and Development of Exports, for the Period From January 1, to
                               December 31, 2006
   1-522-07-055-R   07/30/07   Audit of the Fund Accountability Statement for the EDUCATODOS                1               QC
                               Program, Under Grant Agreement No. 522-0436, Managed by the
                               Secretariat of Education, for the Year Ended December 31, 2006




                                                                                                         BU--Better Use of Funds
                                                                                                         QC--Questioned Costs
                                                                                                         UN--Unsupported Costs
                                                                                                         Note: UN is part of QC


Appendix A                                                                          SEMIANNUAL REPORT TO THE CONGRESS               21
                                                                                                                   Amount of
       Report               Date of                                                                                 Findings   Type of
       Number               Report                                  Report Title                                    ($000s)    Findings
     1-517-07-056-R         07/31/07   Audit of the Fund Accountability Statement for Three Projects,                 20         QC
                                       Cooperative Agreement Nos. 517-A-00-03-00114-00 and 517-A­
                                                                                                                      20         UN
                                       00-05-00108-00, and Grant Agreement No. 517-G-00-04-00119-00,
                                       Managed by the Fundacion Institucionalidad y Justicia, Inc., for the Year
                                       Ended December 31, 2005
     1-596-07-057-R         07/31/07   Close-out Audit of the Fund Accountability Statement of the Project
                                       “Improved Environmental Management in the Mesoamerican
                                       Biological Corridor,” USAID Project No. 596-0185, Managed by
                                       Secretaria General del Sistema de Integracion Centro Americana and
                                       Comision Centro Americana de Ambiente y Desarrollo, for the Period
                                       October 1, 2005 through December 31, 2006
     1-527-07-058-R         08/15/07   Financial Statement Audit of “Acciones de Prevencion y Atencion de
                                       la Salud Mental y los Derechos Humanos en el Marco del Programa
                                       Integral de Reparaciones” Programa No. 527-G-00-04-0080-00
                                       Managed by Centro de Atencion Psicosocial for the Period From
                                       January 1, 2006 to December 31, 2006
     1-520-07-059-R         08/21/07   Audit of the Fund Accountability Statement of the Program to
                                       Strengthen the Competitiveness of Guatemalan Trade and Products,
                                       Cooperative Agreement No. 520-A-00-05-00009-00, Managed by the
                                       Asociacion Gremial de Exportadores de Productos no Tradicionales
                                       de Guatemala, for the Year Ended December 31, 2006
     1-527-07-060-R         08/21/07   Caritas del Peru - Financial Audit of the Program of Regional
                                       Economic Development and Opportunities to Reduce Social
                                       Exclusion - PODERES, Financed by the United States Agency for
                                       International Development for the Period Between January 1, 2006
                                       and December 31, 2006
     1-517-07-061-R         08/21/07   Financial Statement Audit of “Enlargement of MUDE Bakeries,”
                                       USAID/Dominican Republic Program No. 517-A-00-02-00122-00
                                       Managed by Mujeres en Desarrollo Dominicana, Inc. (MUDE) for the
                                       Period From August 25, 2003 to November 30, 2004
     1-596-07-062-R         08/21/07   Comision Centroameicana de Ambiente y Desarollo - CCAD - Audit
                                       of the Fund Accountability Statement of USAID Resources Provided
                                       Under Strategic Agreement No. 596-A-00-06-00078-00 “Economic
                                       Freedom: Open Diversified Expanding Economies in Central America
                                       and the Dominican Republic - DR-CAFTA” – Project Managed by
                                       CCAD
     1-517-07-063-R         08/22/07   Financial Statement Audit of “Reproductive Health Services,” USAID/
                                       Dominican Republic Program No. 517-G-00-01-00117-00 Managed by
                                       Mujeres en Desarrollo Dominicana, Inc. (MUDE) for the Period From
                                       January 1, 2002 to June 30, 2006
     1-527-07-064-R         08/23/07   Consorcio de Organizaciones Privadas de Promocion al Desarrollo
                                       de la Micro y Pequena Empresa - COPEME - Financial Audit of the
                                       Closing of the Program “Increase in Microfinance Services for the
                                       Activities of the Poor” for the Period From January 1 to December
                                       31, 2006
     1-522-07-065-R         08/28/07   Financial Statement Audit of the Central American Centers of
                                       Excellence for Teacher Training Program, Cooperative Agreement No.
                                       522-A-00-02-00348-00, Managed by Universidad Pedagogica Nacional
                                       Francisco Morazan, for the Year Ended September 30, 2006




      BU--Better Use of Funds

      QC--Questioned Costs

      UN--Unsupported Costs

      Note: UN is part of QC



22    SEMIANNUAL REPORT TO THE CONGRESS                                                                                         Appendix A
                                                                                                       Amount of
     Report         Date of                                                                             Findings        Type of
     Number         Report                                Report Title                                  ($000s)         Findings
   1-511-07-066-R   09/07/07   Independent Auditor’s Report for the Period from October 1, 2005           21               QC
                               to December 31, 2005; Regional Alternative Development Program
                               USAID Grant Agreement No. 511-0660
   1-511-07-067-R   09/18/07   Independent Auditor’s Report for the Year January 1, 2004 to
                               December 31, 2004; Neighbour Roads Unit - Yungas; Grant Agreement
                               for the Strategic Objective of Alternative Development USAID No.
                               511-0643
   1-511-07-068-R   09/07/07   Independent Auditor’s Report for the Year Ended December 31, 2006          26               QC
                               (PDAR Closeout Date); Regional Alternative Development Program
                               (PDAR) Strategic Objective USAID Grant Agreement No. 511-0660
   1-511-07-069-R   09/07/07   Independent Auditor’s Report for the Year Ended December 31,               594              QC
                               2005; Rural Roads Program, USAID Grant Agreement No. 511­
                               0643 (Alternative Development Efforts Consolidation Program
                               - CONCADE)
   1-511-07-070-R   09/07/07   Independent Auditor’s Report for the Year January 1, 2006 to               756              QC
                               December 31, 2006; Rural Roads Program Integral Development
                               Program USAID Grant Agreement No. 511-0660
   1-511-07-071-R   09/17/07   Independent Auditor’s Report for the Year Ended December 31, 2004;
                               Regional Alternative Development Program - Yungas, USAID Grant
                               Agreement Number 511-0643
   1-511-07-072-R   09/17/07   Independent Auditor’s Report for the Year Ended December 31, 2004;
                               Vice Ministry of Alternative Development Executing Entity: Bolivian
                               Agricultural Technology Institute IBTA/CHAPARE Grant Agreement
                               for the Strategic Objective of Alternative Development USAID No.
                               511-0643
   1-511-07-073-R   09/19/07   Independent Auditor’s Report for the Year Ended December 31,               70               QC
                               2005 (Operations Closeout Date); Regional Alternative Development
                               Program USAID Grant Agreement No. 511-0643
   1-518-07-074-R   09/20/07   Independent Auditor’s Report for the Year Ended December 31,
                               2006 and the Period October 1 to December 31, 2006; International
                               Organization for Migration – “Program for Community Strengthening
                               Initiatives in Northern Ecuador,” Cooperation Agreement No. 518­
                               A-00-01-00010-00 and “Program to Combat Trafficking in Persons in
                               Ecuador,” Cooperation Agreement No. 518-A-00-06-00077-00
   1-511-07-075-R   09/25/07   Financial Statement Audit of Agreements Nos. 511-A-00-03-00200-00
                               and 511-A-00-02-00206-00 Managed by the Centro Amazonico de
                               Desarrollo Forestal for the Periods from March 1, 2004 to December
                               31, 2004 and from January 1, 2004 to December 31, 2004 Respectively
   1-511-07-076-R   09/25/07   Financial Statement Audit of Agreements Nos. 511-A-00-03-00200-00
                               and 511-A-00-02-00206-00, Managed by the Centro Amazonico de
                               Desarrollo Forestal For the Period January 1, 2005 to December 31,
                               2005
   1-526-07-077-R   09/21/07   Audit of Program No. 526-A-00-03-00060-00, Managed by the
                               Instituto de Derecho y Economia Ambiental (IDEA) for the Year
                               Ended December 31, 2006
   1-518-07-078-R   09/21/07   Financial Statement Audit of “Program of Financial Sustainability and      154              QC
                               Strategic Alliances,” Agreement No. 518-A-00-98-00-00187-00, and the
                                                                                                          154              UN
                               “Program to Strengthen Local Governments in Ecuador,” Agreement
                               No. 518-A-00-04-00-00142-00, Managed by Fundacion Esquel
                               - Ecuador, for the Year Ended December 31, 2006

                                                                                                        BU--Better Use of Funds
                                                                                                        QC--Questioned Costs
                                                                                                        UN--Unsupported Costs
                                                                                                        Note: UN is part of QC


Appendix A                                                                         SEMIANNUAL REPORT TO THE CONGRESS               23
                                                                                                               Amount of
       Report               Date of                                                                             Findings   Type of
       Number               Report                                Report Title                                  ($000s)    Findings
     1-511-07-079-R         09/24/07   Independent Auditor’s Report for the Year Ended December 31,
                                       2003; Regional Alternative Development Program - Chapare; Grant
                                       Agreement No. 511-0643;Vice Ministry of Alternative Development
     1-518-07-080-R         09/25/07   Independent Auditor’s Report Agreement No. 518-A-00-03-00054-00,            6         QC
                                       “Program for Strengthening Democracy in Ecuador” Financed by the
                                                                                                                   6         UN
                                       United States Agency for International Development (USAID) and
                                       Managed by the Citizen Participation Corporation, for the Year Ended
                                       December 31, 2006
     1-511-07-081-R         09/25/07   Independent Auditor’s Report for the Year Ended December 31, 2003;
                                       Vice Ministry of Alternative Develoment (VIMDESALT) Executing
                                       Entity: Bolivian Agricultural Technology Institute IBTA/CHAPARE Grant
                                       Agreement for the Strategic Objective of Alternative Development
                                       USAID No. 511-0643
     4-621-07-005-N         06/21/07   Agency-Contracted Audit of USAID’s Resources Managed by Deloitte            5         QC
                                       & Touche Under Strategic Objective Agreement No. 621001-01,
                                                                                                                   1         UN
                                       Contract No. 623-C-00-03-00004-00 for the Period November 15,
                                       2002 to December 31, 2004
     4-613-07-006-N         07/20/07   Agency-Contracted Close-Out Audit of USAID Resources Managed              1,299       QC
                                       by Amani Trust in Harare, Zimbabwe under Grant Agreement Number
                                                                                                                  68         UN
                                       613-G-00-01-00176-00, and Audit of Grant Agreement Number
                                       613-G-00-01-00244-00, for the period June 12, 2001 to September 30,
                                       2005
     4-612-07-007-N         08/28/07   Agreed-Upon Close-Out Procedures Review of USAID Resources                 32         QC
                                       Managed by Malawi Environmental Endowment Trust, Cooperative
                                                                                                                  13         UN
                                       Agreement No. 690-A-00-01-00189-00 for the Period October 1,
                                       2001 to September 30, 2003
     4-623-07-007-R         06/29/07   Audit of USAID Resources Managed by Centre for African Family               3         QC
                                       Studies under USAID Cooperative Agreement No. 623-A-00-02­
                                       00107-00 for the Period January 1 to December 31, 2005
     4-674-07-008-N         08/28/07   Agency-Contracted Audit of USAID Resources Managed by Southern             165        QC
                                       African Development Community - Parliamentary Forum (SADC-PF)
                                                                                                                  44         UN
                                       Under Strategic Objectives Grant Agreement (SOAG) No. 690-0305
                                       for the Period April 1, 2005 to March 31, 2006
     4-615-07-008-R         06/29/07   Close-Out Audit of USAID Resources Managed by African Medical              430        QC
                                       Research Foundation under Phase-Two Bomb Blast Survivor
                                                                                                                  388        UN
                                       Assistance Program Cooperative Agreement No. 623-A-00-99-00097­
                                       01 for the Period July 1, 1999 to September 30, 2003
     4-673-07-009-N         09/12/07   Agency-Contracted Close-Out Audit of USAID/Namibia’s Resources             889        QC
                                       Managed by Cheetah Conservation Fund Under Grant Agreement
                                                                                                                  481        UN
                                       No. 690-G-00-01-00198-00 for the Period September 27, 2001 to
                                       September 25, 2005
     4-615-07-009-R         06/29/07   Close-Out Audit of USAID Resources Managed by African Medical              359        QC
                                       Research Foundation under the Bungoma District Malaria Initiative
                                                                                                                  336        UN
                                       Program Cooperative Agreement No. 623-A-00-00-00097-00 for the
                                       Period March 1, 2000 to March 31, 2003
     4-673-07-010-N         09/14/07   Agency Contracted Audit of USAID Resources Managed by Namibia             1,625       QC
                                       Nature Foundation under Cooperative Agreement No. 690-A-00-02­
                                                                                                                 1,581       UN
                                       00209-00 for the period August 1, 2002 to February 28, 2005
     4-623-07-010-R         07/06/07   Audit of USAID Resources Managed by the Association for
                                       Strengthening Agricultural Research in Eastern and Central Africa
                                       under Cooperative Agreement No. 623-A-00-02-00095-00 for the
                                       Period January 1 to December 31, 2005

      BU--Better Use of Funds

      QC--Questioned Costs

      UN--Unsupported Costs

      Note: UN is part of QC



24     SEMIANNUAL REPORT TO THE CONGRESS                                                                                    Appendix A
                                                                                                       Amount of
     Report         Date of                                                                             Findings        Type of
     Number         Report                                Report Title                                  ($000s)         Findings
   4-673-07-011-N   09/14/07   Agency Contracted Close-Out Audit of USAID Resources Managed               567              QC
                               by Namibia Institute for Democracy under Cooperative Agreement
                                                                                                          464              UN
                               No. 690-A-00-01-00105 for the period April 1, 2001 to September 30,
                               2005 and Audit of Cooperative Agreement No. 690-A-00-04-00267-00
                               for the period October 1, 2004 to December 31, 2005
   4-623-07-011-R   07/16/07   Audit of Resources Managed by African Centre for Technology Studies         1               QC
                               (ACTS) under USAID Grant Agreement 623-A-00-04-00099-00 and
                               Sub-Grant Agreement with Association for Strengthening Agricultural
                               Research in Eastern and Central Africa (ASARECA) for the period
                               January 1 to December 31, 2005 and Close-out Audit of Cooperative
                               Agreement No.l 623-A-00-00-0180-00 for the period September 30,
                               2000 to March 31, 2005
   4-612-07-012-N   09/19/07   Agency Contracted Close-Out Agreed-Upon-Review Procedures                  26               QC
                               of the USAID Resources Managed by Evangelical Baptist Church
                                                                                                          25               UN
                               of Malawi Under Machinga, Balaka Input-For-Assets Projects, Grant
                               Agreement No. 690-G-00-01-00141-00 for the Period May1, 2002 to
                               May 16, 2003
   4-623-07-012-R   07/20/07   Audit of The Regional Centre for Quality of Health Care (RCQHC)            21               QC
                               for the Limited Scope Grant Agreement Number 6230010.40-00002
                               for the 12 months period ended June 30, 2005
   4-617-07-013-R   07/27/07   Audit of USAID Resources Managed by Joint Clinical Research Centre        1,373             QC
                               under Cooperative Agreement Number 617-A-00-04-00003-00 for
                                                                                                          689              UN
                               the Period July 1, 2004 to June 30, 2005
   4-674-07-014-R   07/27/07   Close-Out Agreed-Upon Procedures Review of the USAID Resources             78               QC
                               Managed by Medical Education for South African Blacks under
                                                                                                          66               UN
                               Program Bursaries to Train Black South African Students in the Health
                               Professions, Grant Agreement No. 674-0309-G-SS-2044-03 for the
                               Period January 1, 2000 to March 31, 2004
   4-656-07-015-R   07/31/07   Close-Out Audit of USAID Resources Managed by Centro de Estudos            309              QC
                               de Democracia e Desenvolvimento under The Elections Observation
                                                                                                          208              UN
                               and Parallel Vote Tabulation Project, Cooperative Agreement No.
                               656-A-00-04-00049-00 for the Period October 31, 2004 to February
                               28, 2005
   4-615-07-016-R   08/01/07   Recipient-Contracted Audit of USAID Resources Managed by                   300              QC
                               Kenya Wildlife Services Under Conservation of Resources Through
                                                                                                          217              UN
                               Enterprises (CORE) Project, Grant Agreement No. 615-0247, Eleventh
                               Amendment, for the period July 1, 2003 to June 30, 2004
   4-674-07-017-R   08/02/07   Recipient-Contracted Audit of USAID Agreements GPO-A-00-05­                735              QC
                               00007-00 (ABY), GPO-A-00-05-00014-00 (OVC), and Sub Agreement
                                                                                                          127              UN
                               M5-G-002 with Hope worldwide South Africa for the Period January
                               1 to December 31, 2005
   4-623-07-018-R   08/06/07   Close-Out Audit of USAID Award No. 623-0006 for the period                 354              QC
                               January 1 to September 30, 2005 and Audit of USAID Award No.
                                                                                                          333              UN
                               6231006.01-40002 for the period January 1 to December 31, 2005
                               Managed by the Inter-Governmental Authority On Development
                               (IGAD)
   4-617-07-019-R   08/08/07   Audit of Activities Funded by USAID Under Cooperative Agreement             2               QC
                               No. 617-A-00-05-00010-00 Managed by Hospice Africa Uganda for
                                                                                                           1               UN
                               the Six-Month Period Ending March 31, 2006



                                                                                                        BU--Better Use of Funds
                                                                                                        QC--Questioned Costs
                                                                                                        UN--Unsupported Costs
                                                                                                        Note: UN is part of QC


Appendix A                                                                         SEMIANNUAL REPORT TO THE CONGRESS               25
                                                                                                                Amount of
       Report               Date of                                                                              Findings   Type of
       Number               Report                                 Report Title                                  ($000s)    Findings
     4-621-07-020-R         08/13/07   Audit of USAID Resources Managed by Research and Education for
                                       Democracy in Tanzania for Pre-Election and 2005 Zanzibar General
                                       Elections Monitoring in Zanzibar, USAID Grant No. 623-G-00-04­
                                       00092-00 for the Period October 1, 2004 to December 31, 2005
     4-674-07-021-R         08/31/07   Close-Out Audit of USAID Resources Managed by READ Educational              462        QC
                                       Trust, Cooperative Agreement No. 674-A-00-01-00002-00 for the
                                                                                                                   123        UN
                                       Period April 1, 2002 to March 31, 2003
     4-621-07-022-R         08/31/07   Audit of USAID Resources Managed by the Government of the
                                       United Republic of Tanzania’s Reproductive and Child Health Initiative
                                       Project under Strategic Objective Grant Agreement No. 621-0001-01
                                       Implementation Letters No. 57, 59, 60, 64 and 73 for the Period
                                       September 1, 2002 to June 30, 2005
     4-674-07-023-R         09/26/07   Audit of Right to Care under USAID Cooperative Agreement No.               3,984       QC
                                       674-A-00-02-00018-00 for the period January 1 to December 31,
                                                                                                                  2,9518      UN
                                       2005
     5-497-07-007-N         06/08/07   Financial Audit of Costs Incurred and Billed by PT Wijaya Karya to          58         QC
                                       Implement the Aceh Road, Bridge Reconstruction and Rehabilitation
                                       Project, USAID/Indonesia Contract No. 497-C-00-05-00044-00, for
                                       the Period from April 1, 2006, to September 22, 2006
     5-386-07-009-N         08/13/07   Financial Audit of Livelihood Restoration and Skills Development of         153        QC
                                       Tsunami Victims in Tami Nadu Program, USAID/India Grant Number
                                                                                                                   144        UN
                                       386-G-00-05-00046, Managed by Exnora International, for the Period
                                       from January 20, 2005, to September 30, 2006
     5-492-07-012-R         04/13/07   Financial Audit of the Barangay Justice Service System Project, USAID/
                                       Philippines Grant Agreement No. 492-G-0098-00044-00, Managed by
                                       the Gerry Roxas Foundation, Inc., for the Period from January 1, 2005,
                                       to December 31, 2005
     5-492-07-013-R         04/20/07   Financial Audit of the Program Titled “Targeted Intervention
                                       Economic Reform and Governance - Institutional Grant for Policy
                                       Development,” USAID/Philippines Cooperative Agreement No. 492-A­
                                       00-04-00024-00, Managed by the Ateneo de Manila University, for the
                                       Period from August 31, 2004, to March 31, 2006
     5-391-07-014-R         05/03/07   Financial Audit of the Aga Khan University Examination Board, USAID/
                                       Pakistan Cooperative Agreement No. 391-A-00-03-01003-00, for the
                                       Period from July 1, 2003, to December 31, 2004
     5-386-07-015-R         05/23/07   Financial Audit of USAID Resources Managed by Voluntary Health              171        QC
                                       Services for the Year Ended March 31, 2006
                                                                                                                   27         UN
     5-492-07-016-R         06/01/07   Closeout Financial Audit of the Contraceptive Social Marketing in the       18         QC
                                       Philippines Program, USAID/Philippines Cooperative Agreement No.
                                       492-A-00-02-00029, Managed by DKT Philippines Inc., for the Period
                                       from January 1, 2005 to March 31, 2006
     5-386-07-017-R         06/13/07   Financial Audit of the Financial Institutions Reform and Expansion
                                       (FIRE D-III) Project, USAID/India Grant Agreement No. 386-A-00-03­
                                       00175-00, Managed by the National Institute of Urban Affairs, for the
                                       Period from April 1, 2005, to March 31, 2006




      BU--Better Use of Funds

      QC--Questioned Costs

      UN--Unsupported Costs

      Note: UN is part of QC



26     SEMIANNUAL REPORT TO THE CONGRESS                                                                                     Appendix A
                                                                                                         Amount of
     Report         Date of                                                                               Findings        Type of
     Number         Report                                 Report Title                                   ($000s)         Findings
   5-492-07-018-R   06/20/07   Financial Audit of the Program Titled “Targeted Intervention                 69               QC
                               Economic Reform and Governance - Institutional Grant for Policy
                                                                                                             5               UN
                               Development,” USAID/Philippines Cooperative Agreement No.
                               492-A-00-04-00025-00 with De La Salle University, Inc., Managed by
                               the Principal Partner Philippine Exporters Confederation, Inc., for the
                               Period from August 31, 2004, to May 31, 2006
   5-367-07-019-R   07/11/07   Financial and Closeout Audit of the Developing Regional Cooperation
                               for Flood Information Exchange Program, USAID/Nepal Cooperative
                               Agreement No. 367-A-00-02-00024-00, Managed by the International
                               Centre for Integrated Mountain Development, for the Period from
                               January 1, 2004 to December 31, 2005
   5-391-07-020-R   07/25/07   Financial Audit of the Program Titled “Improved Pakistani Family             35               QC
                               Planning and Reproductive Health Services,” USAID/Pakistan
                                                                                                            35               UN
                               Cooperative Agreement No. 391-A-00-03-01016-00, Managed by the
                               Greenstar Social Marketing Pakistan (Guarantee) Limited (Greenstar),
                               for the Period from November 7, 2003, to June 30, 2004
   5-442-07-021-R   08/03/07   Financial Audit of USAID/Cambodia Cooperative Agreement No. 442­             231              QC
                               A-00-98-00106-00, Regional Development Mission/Asia Cooperative
                                                                                                            221              UN
                               Agreement No. 486-A-00-04-00018-00, and Subgrant (Closeout)
                               under REDSO/EA Cooperative Agreement 623-A-00-01-00017-00
                               Managed by the Handicap International Belgium ASBL, for Various
                               Periods between August 2, 2002 and December 31, 2005
   5-386-07-022-R   08/09/07   Financial Audit of the Program Titled “Innovations in Family Planning
                               Services Project,” USAID/India Project No. 386-0527, Managed by the
                               State Innovations in Family Planning Services Project Agency (SIFPSA),
                               for the Period from April 1, 2005 to March 31, 2006
   5-391-07-023-R   08/22/07   Financial Audit of the Enterprise Development Facility Program,              951              QC
                               Cooperative Agreement No. 391-A-00-03-01010-00, Managed by the
                               Pakistan Poverty Alleviation Fund for the Period from July 1, 2005, to
                               June 30, 2006
   5-391-07-024-R   09/28/07   Financial Audit of the Four Year Bachelor’s Degree Program, USAID/
                               Pakistan Grant Agreement No. 391-G-00-04-01036-00, Managed by
                               Forman Christian College, Lahore (FCC), for the Period from July 1,
                               2005, to June 30, 2006
   6-263-07-006-R   04/19/07   Financial Close-Out Audit of USAID Resources Managed by the
                               Ministry of Health and Population, Focus on Family Health Project
                               No. 253-0287.04, Implementation Letter No. 1, for the Period From
                               January 1, 2004, to October 31, 2006
   6-263-07-007-R   05/13/07   Financial Audit of USAID Resources Managed and Expenditures
                               Incurred by Financial Sector Modernization Program/Competitive
                               Environment for Investment/Advisory and Monitoring Unit, USAID/
                               Egypt Grant Agreement No. 263-0289.02, IL No. 2 for the Period
                               From January 1, 2006, to December 31, 2006
   6-263-07-008-R   05/15/07   Financial Audit of USAID Resources Managed and Expenditures
                               Incurred by Alexandria Business Association Small and Micro
                               Enterprises Cooperative Agreement No. 263-A-00-02-00005-00 for
                               the Period From January 1, 2005, to December 31, 2005
   6-263-07-009-R   06/28/07   Financial Audit of Experts for the Central Bank of Egypt, Grant              29               QC
                               Agreement No. 263-0266, Implementation Letter No.Three, Results
                                                                                                             4               UN
                               Package Grant Agreement for Partnership for Competitiveness, for
                               the Period August 1, 2004,Through December 31, 2005

                                                                                                          BU--Better Use of Funds
                                                                                                          QC--Questioned Costs
                                                                                                          UN--Unsupported Costs
                                                                                                          Note: UN is part of QC


Appendix A                                                                           SEMIANNUAL REPORT TO THE CONGRESS               27
                                                                                                             Amount of
       Report               Date of                                                                           Findings   Type of
       Number               Report                                Report Title                                ($000s)    Findings
     6-294-07-035-N         05/09/07   Audit of USAID Resources Managed by CARE International Under
                                       Cooperative Agreement No. 294-A-00-03-00225-00 “Emergency
                                       Medical Assistance Program II in the West Bank and Gaza,” for the
                                       Period from September 26, 2003, to September 30, 2004
     7-675-07-003-R         08/31/07   Audit of USAID Resources Provided to CPTAFE under the Fight
                                       against Women Genital Cutting Project No. 675-G-00-04-00158-00 in
                                       Guinea for the Period October 1, 2004 to July 31, 2006
     7-675-07-004-R         09/25/07   Audit of USAID Resources Provided to GCM-HIV/AIDS Steering
                                       Committee under the HIV/AIDS Program No. 675-G-00-04-00099 in
                                       Guinea for the Period June 1, 2004 to December 31, 2006
     7-620-07-005-R         09/27/07   Audit of the Fund Accountability Statement of Society for Family
                                       Health under Award Nos. 620-A-00-05-00098 and 620-A-00-05-00100
                                       in Nigeria for the Period June 8, 2005 to December 25, 2005
     8-118-07-016-R         04/12/07   Audit of “Golos” Association of Non-Profit Organizations in Defense
                                       of Voters Rights, USAID Cooperative Agreement No. 118-A-00-04­
                                       00040, for the Year Ending December 31, 2005
     8-118-07-017-R         04/16/07   Audit of the Institute for Urban Economics, USAID Grant Agreement
                                       Nos. 118-A-00-01-0135 and 118-A-00-04-00011, for the Year Ending
                                       December 31, 2005
     8-000-07-018-R         04/24/07   Audit of ZOA Refugee Care, USAID Agreement No. DFD-G-00-05­
                                       00058-00, for the Period January 28, 2005 to February 28, 2006
     8-000-07-019-R         05/11/07   Audit of Medair, Under Multiple USAID Agreements Covering Various         1         QC
                                       Periods Ending Between 2004 through 2006

     8-111-07-020-R         05/15/07   Audit of “Mission Armenia” NGO Support for Soup Kitchens Project
                                       for USAID Cooperative Agreement No. 111-A-00-04-00010-00, for
                                       the Year Ended December 31, 2005
     8-118-07-021-R         05/24/07   Audit of IPO Junior Achievement Russia for USAID Grant No. 118-G­
                                       00-98-00151-00 for the Year Ending December 31, 2005
     8-119-07-022-R         06/01/07   Audit of USAID-Funded Programs Implemented by the Tajik Branch of
                                       Open Society Institute - Assistance Foundation in 2005
     8-168-07-023-R         05/29/07   Audit of Centers for Civic Initiatives, Under Two USAID Agreements
                                       Covering Period Ending December 31, 2005
     8-000-07-024-R         06/20/07   Audit of USAID-Funded Programs Implemented by the International          165        QC
                                       HIV/AIDS Alliance for Fifteen Programs, for the Year Ended December
                                                                                                                16         UN
                                       31, 2005
     8-000-07-025-R         06/21/07   Audit of USAID-Funded Program Implemented by the International
                                       Federation of Red Cross and Red Crescent Societies - Indonesia
                                       Delegation in 2003
     8-000-07-026-R         06/26/07   Audit of Norwegian People’s Aid under Four USAID Agreements for          330        QC
                                       the Year Ended December 31, 2004
                                                                                                                141        UN
     8-000-07-027-R         07/05/07   Audit of USAID-Funded Programs Implemented by the Action Contre          25         QC
                                       La Faim in 2005
                                                                                                                25         UN
     8-000-07-028-R         07/19/07   Audit of Foundation Hirondelle under USAID Grants No. 497-G-00­
                                       03-00027-00 for the Period Ended December 31, 2006
     8-000-07-029-R         07/06/07   Audit of Save the Children Fund UK, Under 51 USAID Agreements,
                                       for the Year Ended March 31, 2006


      BU--Better Use of Funds

      QC--Questioned Costs

      UN--Unsupported Costs

      Note: UN is part of QC



28     SEMIANNUAL REPORT TO THE CONGRESS                                                                                  Appendix A
                                                                                                         Amount of
     Report         Date of                                                                               Findings        Type of
     Number         Report                                  Report Title                                  ($000s)         Findings
   8-000-07-032-R   07/25/07   Audit of Veterinaires Sans Frontieres ASBL for the Year Ending               97               QC
                               December 31, 2005
                                                                                                            92               UN

   8-118-07-033-R   08/07/07   Audit of the Regional Society of Disabled People “PERSPECTIVA”                1               QC
                               under USAID Cooperative Agreement No. 118-A-00-03-0085 for the
                                                                                                             1               UN
                               Year Ended December 31, 2005

                                             --U.S.-BASED CONTRACTORS-­
   0-000-07-039-D   05/15/07   The Pragma Corporation, Report on Audit of Fiscal Year 2000                  28               QC
                               Incurred Costs

   0-000-07-040-D   05/15/07   The Pragma Corporation, Report on Audit of Fiscal Year 2001                  55               QC
                               Incurred Costs

   0-000-07-041-D   05/15/07   The Pragma Corporation, Report on Audit of Fiscal Year 2002                   7               QC
                               Incurred Costs

   0-000-07-042-D   05/25/07   IBM Global Business Services - Public Sector/Federal, Report on Audit        231              QC
                               for Period October 1 through December 31, 2002 Incurred Costs

   0-000-07-043-D   05/15/07   LTG Associates, Inc., Report on Audit of Incurred Costs for Fiscal Year
                               Ended December 31, 2003
   0-000-07-044-D   05/15/07   Mendez England & Associates, Inc. (formerly Fomentco), Report on
                               Audit of Incurred Costs for Fiscal Year Ended December 31, 1998
   0-000-07-045-D   05/15/07   Planning and Learning Technologies, Inc., Report on Audit of Incurred         9               QC
                               Costs for Fiscal Year Ended December 31, 2000

   0-000-07-046-D   05/15/07   Planning and Learning Technologies, Inc., Report on Audit of Incurred        28               QC
                               Costs for Fiscal Year Ended December 31, 2001

   0-000-07-047-D   05/15/07   General Dynamics Network Systems, Inc., Services Organization,               24               QC
                               Report on Audit of Fiscal Year 2003 Incurred Costs

   0-000-07-048-D   05/15/07   Development Associates, Inc., Report on Audit of Fiscal Year 2000
                               Incurred Costs
   0-000-07-049-D   05/15/07   Dian Fossey Gorilla Fund International, Report on Application of
                               Agreed Upon Procedure
   0-000-07-050-D   05/15/07   Development Associates, Inc., Report on Audit of Fiscal Year 2002
                               Incurred Costs
   0-000-07-051-D   05/15/07   Development Associates, Inc., Report on Audit of Fiscal Year 2001
                               Incurred Costs
   0-000-07-052-D   07/25/07   PA Government Services, Inc., Report on Auidt of Fiscal Year 1998            37               QC
                               Incurred Costs

   0-000-07-053-D   05/15/07   PA Government Services, Inc., Report on Audit of Fiscal Year 1999
                               Incurred Costs
   0-000-07-054-D   05/15/07   The Futures Group International, LLC, Report on Audit of Fiscal Year
                               2003 Incurred Costs
   0-000-07-055-D   05/15/07   LTG Associates, Inc., Report on Audit of Fiscal Year 2004 Incurred
                               Costs
   0-000-07-056-D   05/15/07   BearingPoint, Inc., Report on Audit of Financial Capability

                                                                                                          BU--Better Use of Funds
                                                                                                          QC--Questioned Costs
                                                                                                          UN--Unsupported Costs
                                                                                                          Note: UN is part of QC


Appendix A                                                                            SEMIANNUAL REPORT TO THE CONGRESS              29
                                                                                                                 Amount of
       Report               Date of                                                                               Findings   Type of
       Number               Report                                 Report Title                                   ($000s)    Findings
     0-000-07-057-D         07/25/07   Metcalf & Eddy, Inc., Report on Audit of Fiscal Year 2007 Labor Floor
                                       Check
     0-000-07-058-D         05/15/07   The Futures Group International, LLC, Report on Audit of Fiscal Year
                                       2004 Incurred Costs
     0-000-07-059-D         07/25/07   TCG International, LLC, Report on Audit of Fiscal Year 1998 Incurred
                                       Costs
     0-000-07-060-D         07/25/07   Planning and Learning Technologies, Inc. (Pal-Tech), Report on Audit of      122        QC
                                       Fiscal Year 2002 Incurred Costs

     0-000-07-061-D         07/25/07   Planning and Learning Technologies, Inc. (Pal-Tech), Report on Audit of      452        QC
                                       Fiscal Year 2003 Incurred Costs

     0-000-07-062-D         07/25/07   University Research Corporation, LLC/Center for Human Services,              113        QC
                                       Report on Audit of Fiscal Year 2003 Incurred Costs

     0-000-07-063-D         07/25/07   Abt Associates, Inc., Report on Audit of FY 2007 Labor Floor Check
     0-000-07-064-D         07/25/07   Metcalf & Eddy, Inc., Report on Audit of Fiscal Year 2004 Incurred
                                       Costs
     0-000-07-065-D         07/25/07   The Pragma Corporation, Report on Audit of Fiscal Year 2003                  30         QC
                                       Incurred Costs

     0-000-07-066-D         07/25/07   Nathan Associates, Inc., Report on Audit of Fiscal Year 2003 Incurred        66         QC
                                       Costs

     0-000-07-067-D         07/25/07   Nathan Associates, Inc., Report on Audit of Fiscal Year 2002 Incurred        96         QC
                                       Costs

     0-000-07-068-D         07/25/07   Metcalf & Eddy, Inc., Report on Audit of Contractor Compliance with
                                       CAS 420,Accounting for Independent Research and Development
                                       Costs and Bid and Proposal Costs
     0-000-07-069-D         07/25/07   The Louis Berger Group, Inc. - International, Report on Follow-Up
                                       Audit of Internal Controls of the Billing System
     0-000-07-070-D         07/25/07   DevTech Systems, Inc., Report on Audit of Fiscal Years 2003, 2004, and
                                       2005 Incurred Costs
     5-306-07-002-D         05/25/07   Audit of Costs Incurred in the United States by The Louis Berger             581        QC
                                       Group, Inc. to Implement the Rehabilitation of Economic Facilities and
                                                                                                                    443        UN
                                       Services Program, USAID/Afghanistan Contract No. 306-C-00-02­
                                       00500-00, for the Period from January 1, 2006, to June 30, 2006
     5-497-07-003-D         07/27/07   Evaluation of the Purchases and Use of the Equipment, Materials,
                                       and Services Procured in Indonesia by Parsons Global Services, Inc.
                                       to Implement the Aceh Tsunami Rehabilitation and Reconstruction
                                       Program, USAID/Indonesia Contract No. 497-C-00-6-0004-00, for the
                                       Period from October 24, 2005, to October 27, 2006
     5-306-07-006-N         04/18/07   Financial Audit of Local Costs Incurred by the Louis Berger Group, Inc.
                                       to Implement the Rehabilitation of Economic Facilities and Services
                                       Program, USAID/Afghanistan Contract No. 306-C-00-02-00500-00, for
                                       the Period from October 1, 2006 to December 31, 2006
     5-306-07-008-N         06/27/07   Financial Audit of Local Costs Incurred by the Louis Berger Group,
                                       Inc. to Implement the Rehabilitation of Economic Facilities and
                                       Services Program, USAID/Afghanistan Contract No. 306-C-00-02­
                                       00500-00, for the Period from January 1, 2007, to March 31, 2007

      BU--Better Use of Funds

      QC--Questioned Costs

      UN--Unsupported Costs

      Note: UN is part of QC



30     SEMIANNUAL REPORT TO THE CONGRESS                                                                                      Appendix A
                                                                                                        Amount of
     Report         Date of                                                                              Findings        Type of
     Number         Report                                 Report Title                                  ($000s)         Findings
   6-294-07-038-N   07/24/07   Audit of the Fund Accountability Statement of USAID Resources               59               QC
                               Managed by DPK Consulting Under Contract Number DFD-I-00­
                               04-00173-00,“Netham Rule of Law Program,” for the Period from
                               September 30, 2005, to September 29, 2006
   E-267-07-011-D   04/03/07   Audit of Costs Incurred and Billed Under USAID Contract No.                 50               QC
                               267-C-00-04-00405-00 for the Period of August 1, 2005 through
                                                                                                            7               UN
                               September 30, 2006
   E-267-07-012-D   04/24/07   Audit of Direct Costs Incurred and Billed by America’s Development
                               Foundation under USAID Contract No. GEW-C-00-04-00001-00 from
                               July 1, 2005 to September 30, 2006
   E-267-07-013-D   05/10/07   Audit of Public Vouchers Submitted by International Resources Group,        45               QC
                               Ltd. from November 1, 2004 to September 30, 2006 Under Contract
                               No. 517-C-00-04-00106-00
   E-267-07-015-D   06/12/07   Audit of Costs Billed by Kroll Government Services, Inc. Under
                               Subcontract No.AID-2004-T-00405-000-0058 from May 2005 to
                               September 2006
   E-267-07-016-D   06/14/07   Audit of Costs Incurred and Billed by Abt Associates, Inc. Under
                               USAID Contract No. RAN-C-00-03-00010-00 for the Period
                               September 25, 2004 through November 30, 2004
   E-267-07-018-D   08/02/07   Audit of Costs Incurred and Billed by Development Alternatives, Inc.        42               QC
                               under USAID Contract No. RAN-C-00-04-00002-00 for the Period
                               July 1, 2005 through November 30, 2006
   E-267-07-020-D   08/16/07   Audit of Costs Incurred and Billed by The Louis Berger Group, Inc.         2,917             QC
                               under Contract No. 267-C-00-04-00435-00 for the Period August 1,
                                                                                                          2,578             UN
                               2005 through September 30, 2006
   E-267-07-021-D   09/10/07   Audit of Costs Incurred and Billed by The Louis Berger Group, Inc.          158              QC
                               under Contract No. 267-C-00-04-00417-00 for the Period September
                                                                                                           32               UN
                               27, 2004 through September 30, 2005
   E-267-07-024-D   09/20/07   Audit of Costs Incurred and Billed by Research Triangle Institute           124              QC
                               Under Contract No. 267-C-00-05-00505-00 from January 1, 2006 to
                               December 31, 2006

                                                --U.S.-BASED GRANTEES-­
   0-000-07-002-E   08/23/07   Report on Audit of the U.S. Russia Investment Fund for the Fiscal Year
                               Ended September 30, 2004
   0-000-07-003-E   08/23/07   Report on Audit of the U.S. Russia Investment Fund for Fiscal Year
                               Ended September 30, 2005
   0-000-07-004-E   08/23/07   Report on Audit of the U.S. Russia Investment Fund for the Fiscal Year
                               Ended September 30, 2006
   0-000-07-005-E   08/23/07   Report on Audit of the Czech and Slovak American Enterprise Fund
                               for the Fiscal Year Ended September 30, 2005
   0-000-07-006-E   08/23/07   Report on Audit of Czech and Slovak American Enterprise Fund for
                               the Fiscal Year Ended September 30, 2006
   0-000-07-007-E   09/25/07   Report on Audit of the Polish-American Enterprise Fund for the Fiscal
                               Year Ended September 30, 2004
   0-000-07-008-E   09/25/07   Report on Audit of the Hungarian-American Enterprise Fund for the
                               Fiscal Year Ended September 30, 2004
   0-000-07-009-E   09/25/07   Report on Audit of the Hungarian-American Enterprise Fund for the
                               Fiscal Year Ended September 30, 2005

                                                                                                         BU--Better Use of Funds
                                                                                                         QC--Questioned Costs
                                                                                                         UN--Unsupported Costs
                                                                                                         Note: UN is part of QC


Appendix A                                                                          SEMIANNUAL REPORT TO THE CONGRESS               31
                                                                                                                Amount of
       Report               Date of                                                                              Findings   Type of
       Number               Report                                 Report Title                                  ($000s)    Findings
     0-000-07-010-E         09/27/07   Report on Audit of the Romanian-American Enterprise Fund for the
                                       Fiscal Year Ended September 30, 2004
     0-000-07-011-E         09/27/07   Report on Audit of the Romanian-American Enterprise Fund for the
                                       Fiscal Year Ended September 30, 2005
     0-000-07-012-E         09/27/07   Report on Audit of the Romanian-American Enterprise Fund for the
                                       Fiscal Year Ended September 30, 2006
     0-000-07-013-E         09/27/07   Report on Audit of the Bulgarian-American Enterprise Fund for the
                                       Fiscal Year Ended September 30, 2004
     0-000-07-014-E         09/27/07   Report on Audit of the Bulgarian-American Enterprise Fund for the
                                       Fiscal Year Ended September 30, 2005
     0-000-07-015-E         09/27/07   Report on Audit of the Bulgarian-American Enterprise Fund for the
                                       Fiscal Year Ended September 30, 2006
     0-000-07-016-E         09/27/07   Report on Audit of the Polish-American Enterprise Fund for the Fiscal
                                       Year Ended September 30, 2005
     0-000-07-017-E         09/27/07   Report on Audit of the Hungarian-American Enterprise Fund for the
                                       Fiscal Year Ended September 30, 2006
     0-000-07-018-E         09/27/07   Report on Audit of the Polish-American Enterprise Fund for the Fiscal
                                       Year Ended September 30, 2006
     0-000-07-020-T         07/03/07   A-133 Initial Review of International Research & Exchange Board, Inc.
                                       for Fiscal Year Ending June 30, 2005
     0-000-07-021-T         09/20/07   World Vision, Inc.,A-133 Audit Reports for Fiscal Years Ending
                                       September 30, 2004 and 2005
     0-000-07-022-T         09/20/07   World Vision International and World Vision, Inc. (U.S.A.),A-133 Audit     4,200       QC
                                       Report for Fiscal Year Ending September 30, 2006
     0-000-07-023-T         09/19/07   Review of the A-133 Audit Reports for the Academy for Educational
                                       Development, for the Fiscal Years Ended December 31, 2004 and
                                       December 31, 2005
     0-000-07-024-T         09/19/07   Review of the A-133 Audit Report for the Partnership for Child
                                       Healthcare, Inc. for the Year Ending September 30, 2004
     0-000-07-071-D         07/25/07   U.S. Ukraine Foundation, Report on Adequacy of Procurement, Billing         246        QC
                                       and Direct and Indirect Cost Charging Policies and Procedures and
                                       Review of Other Direct Costs for Cooperative Agreement No. 121­
                                       A-97-00-149-00
     6-294-07-036-N         07/19/07   Audit of the Fund Accountability Statement of Locally Incurred Costs        29         QC
                                       of USAID Resources Managed by International Orthodox Christian
                                                                                                                    7         UN
                                       Charities, Under Cooperative Agreement No. 294-A-00-04-00219-00,
                                       “Palestinian Infrastructure for Needed Employment,” for the Period
                                       From October 1, 2004, to September 30, 2005
     6-294-07-037-N         07/24/07   Close-Out Audit of the Fund Accountability Statement of USAID               431        QC
                                       Resources Managed by International Orthodox Christian Charities,
                                                                                                                   395        UN
                                       Under Cooperative Agreement No. 294-A-00-02-00204-00,
                                       “Emergency Employment Generation Program in the West Bank and
                                       Gaza,” for the Period from February 8, 2002, to May 7, 2004
     6-294-07-039-N         09/27/07   Audit of the Fund Accountability Statement of USAID Resources
                                       Managed by American Near East Refugee Aid, Under Cooperative
                                       Agreement Number 294-A-00-02-00229-00, Job Opportunities
                                       Through Basic Services Project, for the Period From September 1,
                                       2003, to August 29, 2005


      BU--Better Use of Funds

      QC--Questioned Costs

      UN--Unsupported Costs

      Note: UN is part of QC



32     SEMIANNUAL REPORT TO THE CONGRESS                                                                                     Appendix A
                                                                                                     Amount of
     Report         Date of                                                                           Findings        Type of
     Number         Report                                Report Title                                ($000s)         Findings
   7-641-07-002-D   09/28/07   Audit of USAID Resources Managed by Catholic Relief Services in          709              QC
                               Ghana Under Cooperative Agreement No. 641-CA-00-00-00027 for
                                                                                                        245              UN
                               the Period June 8, 1999 to September 30, 2004
   E-267-07-014-D   06/10/07   Audit of Costs Incurred and Billed by the National Democratic
                               Institute of International Affairs, Under Cooperative Agreement No.
                               REE-A-00-04-00050-00 from November 1, 2005 to July 31, 2006
   E-267-07-017-D   06/19/07   Audit of Costs Incurred and Billed by the International Republican
                               Institute under Cooperative Agreement No.AFP-A-00-04-00014-00
                               for the Period of November 1, 2005 through June 30, 2006
   E-267-07-019-D   08/12/07   Audit of Costs Incurred and Billed by the Volunteers for Economic        113              QC
                               Growth Alliance under USAID Associate Cooperative Agreement No.
                                                                                                        72               UN
                               EGA-A-00-04-00002-00 for the Period July 7, 2004 through January 6,
                               2006
   E-267-07-022-D   09/12/07   Audit of Costs Incurred and Billed by the National Democratic
                               Institute for International Affairs under Cooperative Agreement No.
                               AFP-A-00-04-00014-00 from July 9, 2004 to June 30, 2006
   E-267-07-023-D   09/12/07   Audit of Costs Incurred and Billed by the International Republican
                               Institute under Cooperative Agreement No. REE-A-00-04-00050-00
                               from July 26, 2004 through July 31, 2006




                                                                                                      BU--Better Use of Funds
                                                                                                      QC--Questioned Costs
                                                                                                      UN--Unsupported Costs
                                                                                                      Note: UN is part of QC


Appendix A                                                                         SEMIANNUAL REPORT TO THE CONGRESS             33
                      USAID PERFORMANCE AUDIT REPORTS ISSUED

                          April 1, 2007 through September 30, 2007

                                                                                                                    Amount of
       Report                   Date of                                                                              Findings   Type of
       Number                   Report                                 Report Title                                  ($000s)    Findings
                                                         --ECONOMY AND EFFICIENCY--
     1-521-07-008-P             04/24/07   Audit of USAID/Haiti’s Justice Program
     1-514-07-009-P             05/30/07   Audit of USAID/Colombia’s Alternative Development Program                  18,019      BU
     1-511-07-010-P             07/23/07   Audit of USAID/Bolivia’s Integrated Health Coordination Program            12,700      BU
                                           (PROCOSI)
     1-520-07-011-P             08/24/07   Audit of USAID/Guatemala’s Economic Growth Program
     1-527-07-012-P             09/27/07   Audit of USAID/Peru’s Microenterprise Activities                            86         QC
     4-621-07-005-P             05/14/07   Audit of USAID/Tanzania’s Implementation of the President’s Malaria
                                           Initiative
     4-674-07-006-P             05/24/07   Audit of USAID/South Africa’s Cashiering Operations
     4-663-07-007-P             06/29/07   Audit of USAID/Ethiopia’s Effectiveness in Complying with the Tiahrt
                                           Requirements
     4-674-07-008-P             08/16/07   Audit of USAID/South Africa’s Unliquidated Obligations and Balances
     4-690-07-009-P             08/28/07   Follow-up Audit of the Agreed-Upon-Procedures Review of the
                                           Southern Africa Enterprise Development Fund
     4-617-07-010-P             08/30/07   Audit of USAID/Uganda’s Microfinance Activities
     4-612-07-011-P             09/21/07   Audit of USAID/Malawi’s Implementation of the President’s Emergency
                                           Plan for AIDS Relief
     5-306-07-004-P             05/21/07   Audit of Critical Power Sector Activities Under USAID/Afghanistan’s
                                           Rehabilitation of Economic Facilities and Services (REFS) Program
     5-391-07-005-P             05/23/07   Audit of Selected Activities Under USAID/Pakistan’s Basic Health
                                           Program
     5-306-07-006-P             06/07/07   Audit of USAID/Afghanistan’s Urban Water and Sanitation Program
     5-383-07-007-P             06/22/07   Audit of USAID/Sri Lanka’s Tsunami Recovery and Reconstruction
                                           Program Selected Outputs Implemented by Development Alternatives,
                                           Inc.
     5-497-07-008-P             07/11/07   Audit of USAID/Indonesia’s Aceh Road Reconstruction Project Under
                                           Its Tsunami Program
     5-306-07-009-P             08/31/07   Audit of Selected Follow-On Activities Under USAID/Afghanistan’s
                                           Economic Program
     5-442-07-010-P             09/18/07   Audit of USAID/Cambodia’s Implementation of the President’s
                                           Emergency Plan for AIDS Relief
     6-263-07-002-P             09/24/07   Audit of Custom Reform Activities Under USAID’s Assistance for
                                           Customs Reform and Trade Facilitation Project in Egypt
     7-641-07-002-P             05/31/07   Audit of USAID/Ghana’s Program to Increase Private Sector
                                           Competitiveness
     7-688-07-003-P             08/14/07   Audit of USAID/Mali’s Effectiveness in Complying with Tiahrt Voluntary
                                           Family Planning Requirements
     8-111-07-002-P             06/26/07   Audit of USAID/Armenia’s Energy and Water Sector Reform Program
     8-186-07-003-P             07/10/07   Audit of USAID/Romania’s Microenterprise Activities



     BU--Better Use of Funds

     QC--Questioned Costs

     UN--Unsupported Costs

     Note: UN is part of QC



34    SEMIANNUAL REPORT TO THE CONGRESS                                                                                         Appendix A
                                                                                                          Amount of
      Report         Date of                                                                               Findings        Type of
      Number         Report                                 Report Title                                   ($000s)         Findings
    8-118-07-004-P   08/10/07   Audit of USAID/Russia’s Implementation of the President’s Emergency
                                Plan for AIDS Relief
    8-118-07-005-P   09/12/07   Follow-up Audit of USAID/Russia’s Democracy Program
    9-910-07-006-P   05/30/07   Audit of USAID/India’s Implementation of the President’s Emergency
                                Plan for AIDS Relief
    9-000-07-007-P   06/08/07   Audit of USAID’s Avian Influenza Efforts
    9-901-07-008-P   09/24/07   Audit of USAID/CAR/Kazakhstan’s Microfinance Activities
    9-516-07-009-P   09/25/07   Audit of USAID’s Cuba Program
    9-000-07-010-P   09/27/07   Audit of USAID’s Management of P.L. 480 Nonemergency Monetization
                                Programs
    A-000-07-003-P   07/16/07   Audit of Compliance of Selected USAID Websites with Specific
                                Requirements of Section 207(f) of the E-Government Act of 2002
    A-000-07-004-P   07/19/07   Audit of USAID’s Pre-Deployment Activities for Its Global Acquisition
                                System
    A-000-07-005-P   07/23/07   Audit of USAID’s Computer Servers and Oracle Database for the
                                Phoenix Financial Management System
    A-000-07-006-P   09/14/07   Audit of USAID’s Capital Planning and Investment Control for the
                                Foreign Assistance Coordination and Tracking System (FACTS)
    A-000-07-009-P   09/28/07   Audit of USAID’s Compliance With Provisions of the Federal
                                Information Security Management Act of 2002 for Fiscal Year 2007
    E-267-07-004-P   05/03/07   Audit of USAID/Iraq’s Telecommunications Activities
    E-267-07-005-P   06/06/07   Audit of USAID/Iraq’s Activity Planning and Its Reporting Process
                                Under Section 2207 of Public Law 108-106
    E-267-07-006-P   07/11/07   Audit of the Office of Foreign Disaster Assistance Program in Iraq
    E-267-07-007-P   07/31/07   Audit of USAID/Iraq’s Local Governance Activities
    E-267-07-008-P   09/27/07   Audit of USAID/Iraq’s Participation in Provincial Reconstruction Teams
                                in Iraq




                                                                                                         BU--Better Use of Funds
                                                                                                         QC--Questioned Costs
                                                                                                         UN--Unsupported Costs
                                                                                                         Note: UN is part of QC


Appendix A                                                                          SEMIANNUAL REPORT TO THE CONGRESS                 35
                           USAID MISCELLANEOUS REPORTS ISSUED

                             April 1, 2007 through September 30, 2007

                                                                                                               Amount of
       Report                Date of                                                                            Findings   Type of
       Number                Report                                Report Title                                 ($000s)    Findings
                                                   --QUALITY CONTROL REVIEWS-­
     1-526-07-001-Q          07/18/07   Quality Control Review of Audit Report and Work Papers Related to
                                        the “Financial Statement Audit of Cooperative Agreement No. 526­
                                        A-00-02-00073-00, Program of Mediation, Managed by Instituto de
                                        Estudios Comparados en Ciencias Penales y Sociales, for the Period
                                        From January 1 to December 31, 2004”
     1-527-07-002-Q          07/17/07   Quality Control Review of Audit Report and Work Papers Related to
                                        Financial Statement Audit and Commodity Status Report of (1) Food
                                        Monetization Program PL 480,Title II, Monetization DAP,Agreement
                                        No. FFP-A-00-02-00019-00-02 and (2) Program to Support the
                                        Implementation of a Logistics System to Provide Overall Health
                                        Services by the Health Ministry,Agreement No. 727-A-00-96-00470­
                                        07, Managed by Asociacion Benefica Prisma for the Period From
                                        January 1, 2004 to December 31, 2004 and Report on the Financial
                                        Review of the Micro-Credit Program as of December 31, 2004
     1-526-07-003-Q          07/26/07   Quality Control Review of Audit Report and Work Papers Related
                                        to the “Financial Statement Audit of the National Environmental
                                        Reform and Ecoregional Planning of the Northern Block of the
                                        Interior Atlantic Rainforest, Health Decentralization and Community
                                        Participation, Project No. 526-A-00-03-00060-00, Managed by the
                                        Instituto de Derecho y Economia Ambiental for the Year Ended
                                        December 31, 2005
     4-623-07-002-Q          04/30/07   Quality Control Review of the Close-Out Audit of the African
                                        Medical & Research Foundation Bungoma District Malaria Initiative
                                        Program under USAID Cooperative Agreement No. 623-A-00-00­
                                        00097-00 for the Period March 1, 2000 to March 31, 2003
     4-623-07-003-Q          04/30/07   Quality Control Review of the Closeout Audit of the African Medical
                                        Research Foundation Phase-Two Bomb Blast Survivor Assistance
                                        Program under USAID Cooperative Agreement No. 623-A-00-99­
                                        00097-01, for the Period July 1, 1999 to September 30, 2003
     4-623-07-004-Q          04/30/07   Quality Control Review of the Audit of the Centre for African Family
                                        Studies under USAID Cooperative Agreement No. 623-A-00-02­
                                        00107-00, for the Period January 1, 2005 to December 31, 2005
     6-294-07-003-Q          06/20/07   Quality Control Review of the Audit of USAID Resources Managed
                                        by East Jerusalem YMCA, Sub-grant Agreement No. SC/CPSP
                                        010, Under Save the Children’s Community Psychosocial Support
                                        Program in the West Bank and Gaza, USAID Cooperative Agreement
                                        No. 294-A-00-01-00115-00, for the Period From October 1, 2002, to
                                        January 31, 2004




      BU--Better Use of Funds

      QC--Questioned Costs

      UN--Unsupported Costs

      Note: UN is part of QC



36    SEMIANNUAL REPORT TO THE CONGRESS                                                                                    Appendix A
                                                                                                    Amount of
      Report        Date of                                                                          Findings        Type of
      Number        Report                               Report Title                                ($000s)         Findings
   7-608-07-002-Q   09/28/07   Quality Control Review of Dar Alkhibra’s Audit of USAID Resources
                               Managed by the Rural Girl’s Support Committee Under Cooperative
                               Agreement No. 608-A-00-02-00137-00 for the Period September
                               1, 2002 through August 31, 2003 and the Period September 1, 2003
                               through August 31, 2004

                                                          --OTHER-­
   6-294-07-001-S   04/26/07   Information on Status and Results of the First 90 Financial Audits
                               of USAID/West Bank and Gaza Activities in Accordance with the
                               Statutory Requirements of the Consolidated Appropriations Acts of
                               2003, 2004, 2005, and 2006




                                                                                                    BU--Better Use of Funds
                                                                                                    QC--Questioned Costs
                                                                                                    UN--Unsupported Costs
                                                                                                    Note: UN is part of QC


Appendix A                                                                       SEMIANNUAL REPORT TO THE CONGRESS              37
                                 PERFORMANCE AUDIT REPORTS ISSUED

                                  April 1, 2007 through September 30, 2007

                          U.S. AFRICAN DEVELOPMENT FOUNDATION
                                                                                                                   Amount of
        Report                   Date of                                                                            Findings     Type of
        Number                   Report                              Report Title                                   ($000s)      Findings
                                                      --ECONOMY AND EFFICIENCY--
     A-ADF-07-007-P              09/20/07   Audit of African Development Foundation’s Compliance with
                                            Provisions of the Federal Information Security Management Act
                                            for Fiscal Year 2007




                                        INTER-AMERICAN FOUNDATION

                                                                                                                     Amount of
        Report                   Date of                                                                              Findings    Type of
        Number                   Report                                Report Title                                   ($000s)     Findings
                                                         --ECONOMY AND EFFICIENCY--
     A-IAF-07-008-P              09/26/07   Audit of Inter-American Foundation’s Compliance with Provisions of
                                            the Federal Information Security Management Act for Fiscal Year 2007




      BU--Better Use of Funds

      QC--Questioned Costs

      UN--Unsupported Costs

      Note: UN is part of QC



38    SEMIANNUAL REPORT TO THE CONGRESS                                                                                           Appendix A
                     AUDIT REPORTS OVER SIX MONTHS OLD

                      WITH NO MANAGEMENT DECISION*

                            As of September 30, 2007

                                                                                       Desired
                                                                                       Decision
     Report                               Issue             Current                     Target
     Number                Auditee        Date        Recommendation Status              Date




                                       NOTHING TO REPORT




  * Applies to USAID, USADF, and IAF




Appendix B                                                 SEMIANNUAL REPORT TO THE CONGRESS      39
                    SIGNIFICANT AUDIT RECOMMENDATIONS

                     DESCRIBED IN PREVIOUS SEMIANNUAL

                       REPORTS WITHOUT FINAL ACTION

                            As of September 30, 2007

                                                            USAID

                                                                                                                   Final
                                                                                                     Management   Action
     Report                                                                                   Rec.    Decision    Target
     Number                           Subject of Report                          Issue Date   No.       Date       Date
  9-615-05-007-P   USAID/Kenya’s Implementation of the President’s                07/21/05     4       07/21/05    12/07
                   Emergency Plan for AIDS Relief
  9-000-06-003-P   USAID’s Reasonable Accommodation Policies and                  12/13/05     3       12/13/05    12/07
                   Procedures
  A-000-06-001-P   USAID’s Information Technology Governance Over Its             02/21/06     2       02/21/06    12/07
                   Phoenix Overseas Deployment and Procurement System
                                                                                               3       02/21/06    12/07
                   Improvement Program Projects
                                                                                               4       02/21/06    12/07
                                                                                               5       02/21/06    12/07
                                                                                               6       02/21/06    12/07
  1-523-06-006-P   Completeness of USAID/Mexico’s Work Plan Deliverables          06/02/06     2       02/01/07    10/07
  4-615-06-011-P   USAID/Kenya’s Compliance with Financial Audit                  07/31/06     5       10/13/06    11/07
                   Requirements Regarding Foreign Recipients
                                                                                               7       07/31/06    02/08
  4-656-06-015-P   USAID/Mozambique’s Compliance with Financial Audit             09/22/06     2       09/22/06    11/07
                   Requirements Regarding Foreign Recipients
                                                                                               4       09/22/06    03/08
                                                                                               7       09/22/06    03/08
  0-000-07-001-C   USAID’s Financial Statements for Fiscal Years 2006 and 2005    11/15/06    2.2      11/15/06    03/08
                                                                                               4       11/15/06    12/07
  1-520-07-002-P   USAID/Guatemala’s Management of Its P.L. 480 Non-              11/27/06     6       04/13/07    04/08
                   Emergency Monetization Program
  9-000-07-003-P   Management of USAID’s Federal Employees’ Compensation          12/04/06     1       2/04/06     11/07
                   Act (FECA) Program
                                                                                               2       12/13/06    11/07
                                                                                               3       12/04/06    11/07
                                                                                               4       12/04/06    11/07
                                                                                               5       12/04/06    11/07
                                                                                               6       12/04/06    11/07
  8-112-07-001-P   USAID/Azerbaijan’s Economic Growth Program                     12/15/06     1       12/15/06    10/07
                                                                                               2       12/15/06    10/07
                                                                                               3       12/15/06    10/07
  4-656-07-003-P   USAID/Mozambique’s Management of P.L. 480 Non-                 12/22/06     1       12/22/06    12/07
                   Emergency Monetization Program
                                                                                               2       03/19/07    12/07




Appendix C                                                                           SEMIANNUAL REPORT TO THE CONGRESS     41
                                                                                                               Final
                                                                                                 Management   Action
       Report                                                                             Rec.    Decision    Target
       Number                           Subject of Report                    Issue Date   No.       Date       Date
     1-511-07-005-P   USAID/Bolivia’s Family Planning Program                 01/22/07     1       01/22/07    12/07
                                                                                           2       01/22/07    12/07
                                                                                           4       01/22/07    12/07
     6-263-07-001-P   USAID/Egypt’s Agricultural Exports and Rural Incomes    02/21/07     1       02/21/07    10/07
                      Project
                                                                                           2       02/21/07    10/07
                                                                                           3       02/21/07    10/07
                                                                                           4       02/21/07    10/07
                                                                                           5       02/21/07    10/07
     7-624-07-001-P   USAID/West Africa’s Management of the P.L. 480 Non-     02/27/07     1       02/27/07    12/07
                      Emergency Monetization Program in Burkina Faso
                                                                                           2       02/27/07    12/07
                                                                                           3       02/27/07    12/07
     1-519-07-006-P   USAID/El Salvador’s Economic Growth Program             03/06/07     1       03/06/07    10/07
                                                                                           2       03/06/07    11/07
                                                                                           3       03/06/07    11/07
                                                                                           4       06/15/07    10/07
                                                                                           5       03/06/07    02/08
                                                                                           7       03/06/07    10/07
                                                                                           8       03/06/07    11/07
                                                                                           9       03/06/07    11/07
                                                                                          10       03/06/07    11/07
     1-512-07-007-P   USAID/Brazil’s Health Program                           03/20/07     1       03/20/07    10/07
                                                                                           2       03/20/07    10/07
                                                                                           3       03/20/07    10/07
                                                                                           4       03/20/07    03/08
                                                                                           5       03/20/07    10/07
                                                                                           6       03/20/07    10/07
                                                                                           7       06/15/07    10/07
                                                                                           8       06/15/07    10/07
                                                                                           9       03/20/07    10/07
                                                                                          10       03/20/07    10/07
                                                                                          11       03/20/07    10/07
                                                                                          12       03/20/07    10/07




42     SEMIANNUAL REPORT TO THE CONGRESS                                                                      Appendix C
                   SIGNIFICANT AUDIT RECOMMENDATIONS

                    DESCRIBED IN PREVIOUS SEMIANNUAL

                      REPORTS WITHOUT FINAL ACTION*

                           As of September 30, 2007

                                                                                            Final
                                                                            Management     Action
     Report                                                          Rec.    Decision      Target
     Number                    Subject of Report        Issue Date   No.       Date         Date




                                          NOTHING TO REPORT




  * Applies to USADF and IAF




Appendix C                                                    SEMIANNUAL REPORT TO THE CONGRESS     43
                                     REPORTS ISSUED WITH QUESTIONED

                                         AND UNSUPPORTED COSTS

                                                                         USAID

                                     April 1, 2007 through September 30, 2007

                                                                             NUMBER
                                                                             OF AUDIT               QUESTIONED        UNSUPPORTED
                           REPORTS                                           REPORTS                   COSTS             COSTS1
     A. For which no management decision had been                               61                  $37,539,6632, 3    $10,000,1402, 3
     made as of April 1, 2007

     B. Add: Reports issued April 1, 2007 through                                 79                 $28,498,1924       $13,178,5164
     September 30, 2007

              Subtotal                                                           140                  $66,037,855       $23,178,656

     C. Less: Reports with a management decision                                  645                $30,190,2886       $10,612,9986
     made April 1, 2007 through September 30, 2007

              i. Value of Recommendations Disallowed by                                               $18,201,183        $1,765,763
              Agency Officials

              ii. Value of Recommendations Allowed by                                                 $11,989,105        $8,847,235
              Agency Officials

     D. For which no management decision had been                                 78                 $35,847,5677       $12,565,6587
     made as of September 30, 2007



     1
     Unsupported Costs are included in Questioned Costs, but are provided as additional information as required by the Inspector
     General Act Amendments of 1988 (P.L. 100-504).

     2
      The ending balance at March 31, 2007, for Questioned Costs totaling $36,250,662 was increased by $1,289,001 to reflect
     adjustments in prior period recommendations due to additional audit work performed; the ending balance at the same period for
     Unsupported Costs of $9,998,971 was increased by $1,169 for the same reason.

     3
      Amounts include $12,698,812 in Questioned Costs and $2,885,206 in Unsupported Costs for audits performed for the OIG by
     other federal audit agencies.

     4
      Amounts include $6,281,128 in Questioned Costs and $3,376,899 in Unsupported Costs for audits performed for the OIG by other
     federal audit agencies.

     5
         Unlike the monetary figures of this row, this figure is not being subtracted from the subtotal.

     6
      Amounts include $12,662,460 in Questioned Costs and $3,293,392 in Unsupported Costs for audits performed for the OIG by
     other federal audit agencies.

     7
      Amounts include $5,604,770 in Questioned Costs and $2,927,552 in Unsupported Costs for audits performed for the OIG by other
     federal audit agencies.




44         SEMIANNUAL REPORT TO THE CONGRESS                                                                                           Appendix D
                   REPORTS ISSUED WITH RECOMMENDATIONS

                      THAT FUNDS BE PUT TO BETTER USE

                                                          USAID

                           April 1, 2007 through September 30, 2007

                                                                         NUMBER OF
                                                                           AUDIT
                                REPORTS                                   REPORTS         DOLLAR VALUES
        A.   For which no management decision had been made as of            1              $11,000,000
             April 1, 2007

        B.   Add: Reports issued April 1, 2007 through September 30,         3              $30,724,558
             2007

             Subtotal                                                        4              $41,724,558

        C.   Less: Reports with a management decision made April 1,          3              $29,024,558
             2007 through September 30, 2007

             i. Value of Recommendations Agreed to by Agency Officials                          $6,056


             ii. Value of Recommendations Not Agreed to by Agency                           $29,018,502
                 Officials

        D.   For which no management decision had been made as of            1              $12,700,000
             September 30, 2007




Appendix D                                                                  SEMIANNUAL REPORT TO THE CONGRESS   45
                                Inspector General

                 HOTLINE
   OIG’s Hotline makes it easy to report allegations of fraud,
   waste, abuse, mismanagement or misconduct in programs
   and operations of the USAID, USADF, IAF, and MCC.
   Employees, contractors, program participants and the
   general public may report allegations directly by e-mail,
   telephone, or mail to:

   Phone                 	1-202-712-1023
                          1-800-230-6539


   E-mail 	 ig.hotline@usaid.gov



   Mail                  	USAID OIG HOTLINE
                         P.O. Box 657
                         Washington, DC 20044-0657


U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20523
www.usaid.gov
          U.S.Agency for International Development 

                 Ofﬁce of Inspector General 

                 1300 Pennsylvania Avenue, NW 

                          Room 6.6D 

                    Washington, DC 20523


                        www.usaid.gov/oig




The Semiannual Report to the Congress is available on the Internet at 

        www.usaid.gov/oig/public/semiann/semiannual1.htm

